          SENSITIVE BUT UNCLASSIFIED

      United States Department of State

    and the Broadcasting Board of Governors

              Ofﬁce of Inspector General





                Report of Inspection

                  Voice of America 

                   Central News



Report Number ISP-IB-08-06, October 2007




                            IMPORTANT NOTICE
This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
in whole or in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by
the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
this report may result in criminal, civil, or administrative penalties.




          SENSITIVE BUT UNCLASSIFIED

                      SENSITIVE BUT UNCLASSIFIED




                               TABLE OF CONTENTS

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

THE CENTRAL NEWS DIVISION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

      The New Central News Room . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

      Central News Division Management Changes . . . . . . . . . . . . . . . . . . . . . . . . 17

      VOA Central News Assignments Desk . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

      Voice of America Washington Correspondents . . . . . . . . . . . . . . . . . . . . . . 21

      Voice of America Central News Service and the Focus Unit . . . . . . . . . . . . 22

      Impact of New Technologies: (I). The Central Video Unit . . . . . . . . . . . . . 24

      Impact of New Technologies: (II) The Internet and Information

          Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

      Measurement of Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

      The Culture of Central News: Communication and Morale . . . . . . . . . . . . . 39

RESOURCE MANAGEMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

      Administrative Support . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

      Costly Decisions Not Fully Vetted . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

      Voice of America Administrative Support Structure, Disjointed 

         and Shortsighted . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56

      Equal Employment Opportunity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59

      Travel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60

      Parking and Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60

MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

     Human Resources Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66

     Personal Property Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 72

     Procurement. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 74

     Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 76





                        SENSITIVE BUT UNCLASSIFIED

                      SENSITIVE BUT UNCLASSIFIED


FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77

INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83

PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 93

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 95

ATTACHMENT A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 97

ATTACHMENT B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 99

ATTACHMENT C . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 101

ATTACHMENT D . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 103





                         SENSITIVE BUT UNCLASSIFIED

                       SENSITIVE BUT UNCLASSIFIED





                               KEY JUDGMENTS

    • 	 The new leadership at Voice of America (VOA), along with even more
        recent changes to the leadership of the Broadcasting Board of Governors
        (BBG), has made a good start on an energetic process to address systemic
        internal communication, and organizational and leadership challenges facing
        VOA’s Central News Division (CN). Much remains to be done.

    • 	 Inadequate horizontal and vertical internal communication, changes in the
        types of technology needed to reach VOA’s target audiences, combined with
        U.S. government-wide problems of funding and stafﬁng, had left CN with an
        inadequate management structure, inefﬁciencies, and poor morale.

    • 	 The increased focus on television and the Internet will require a massive
        shift in resources and an infusion of technical and editorial talent throughout
        the relevant International Broadcasting Bureau (IBB)and VOA ofﬁces. To
        date, neither sufﬁcient funding nor human resources have been identiﬁed and
        allocated to these programs. VOA needs to develop a comprehensive
        strategy for the integration of these new technologies into their products.

    • 	 There was a widespread lack of awareness of administrative guidelines.
        Operational handbooks, position descriptions, and the Manual of Operations
        and Administration (MOA) were not being kept up to date. There were
        vacancies in, and inadequate training for, key administrative and management
        positions.

    • 	 Training in leadership skills, resource management, Equal Employment
        Opportunity (EEO), and technical skills was not tied into broader agency
        mission and career development goals.

    • 	 All parties interviewed as part of this inspection were in agreement that
        products issued by CN should continue to be unbiased summaries of news
        presented in an accurate, objective, and comprehensive manner in accordance
        with the VOA Charter.

    • 	 There was a need for improved internal controls and accountability in
        support of overseas operations.



OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007    1 .


                       SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



          The inspection took place in Washington, DC, between April 20 and July 19,
      2007, and in New York City, on June 12, 2007. Ambassador Eileen A. Malloy
      (team leader), Frank Ward (deputy team leader), Francis Cheever, Boyd Doty,
      Martha Goode, Christine Grauer, Marjorie Lynch, Kristene McMinn, and
      Vandana Patel conducted the inspection.




2 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                  SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                         EXECUTIVE SUMMARY

    The scope of this inspection was to be limited to an assessment of the opera-
tion of VOA’s Central News Division. CN, a critical component of VOA, identiﬁes
news to be covered, assigns reporters to do the coverage, edits their work, and makes
the product available to VOA’s 45 language services. It uses a worldwide network of
correspondents and freelance stringers to gather information that will eventually be
packaged for transmission over radio, television, and the Internet. The Ofﬁce of In-
spector General (OIG) team found early on in the ﬁeldwork for this inspection that
most of CN’s structural and management problems could not be remedied by CN’s
leadership alone because these managers did not control CN’s personnel, budget,
or technical support. While it was beyond the scope of this inspection to evaluate
operations external to CN, the OIG team has made note of conditions in the wider
BBG, IBB, and VOA structure that impacted on the work of CN. The positions of
VOA within the BBG structure and CN within VOA are illustrated in Attachments
A and B.

        The grantees1 that receive U.S. government funds and operate under the
supervision of the BBG have a different set of approaches to their programmatic of-
ferings. The grantees produce material that goes beyond the VOA’s “accurate, objec-
tive, and comprehensive” news format, to include what one BBG ofﬁcial described
as “journalism with a mission” but which the new BBG Chairman has referred to as
“journalism with purpose.” The operation and editorial content of these grantees
was outside the scope of this inspection.




1
 The term “grantee” refers to those semiautonomous international broadcasting operations that
are under the supervision of the BBG and may receive some logistical support from IBB, but
that tend to be self-contained in their management and administration, and are considered to
be nonproﬁt organizations that receive U.S. government funds to do their work. This work is
primarily to provide information in the native language of countries where a free media is not in
operation. These grantees include: Radio Free Europe/Radio Liberty (including Radio Farda,
a joint Persian language broadcast service with VOA); Radio Free Asia; and the Middle East
Broadcasting Networks (Radio Sawa and Alhurra TV).


OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007              3 .


                       SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



      Who’s In Charge?

          The leadership of CN was in transition during the entire inspection period. A
      highly experienced VOA news editor was appointed as acting managing editor of
      CN just prior to the onset of the inspection. During the inspection this acting
      managing editor had no principal deputy due to the illness (and subsequent death)
      of the incumbent. Also, in the course of the inspection, the administrative program
      manager for CN (alternatively referred to as the lead administrative ofﬁcer of the
      Central Programming Directorate, or Program Manager) was reassigned to another
      VOA position outside of CN leaving a gap in this key position. In recent years, posi-
      tion descriptions and work requirements statements have not kept up with changing
      structures. Positions have been created, ﬁlled, and then left empty leaving confu-
      sion among the staff about who does what, and to whom they report. Under the
      circumstances, the OIG team was limited in its ability to assess the leadership skills
      exercised by the acting managing editor of CN but the team did make a number of
      observations and suggestions as outlined in this report.

      Communicating the Vision

          One of the more striking observations was the lack of understanding of the
      BBG’s strategic vision that was exhibited by the CN rank and ﬁle reporters and edi-
      tors in interviews with the OIG team. For example, while the BBG Strategic Plan
      for 2002-07 calls for a concentration of BBG assets on those media markets “where
      most needed in support of U.S. strategic interests,” most CN reporters and editors
      interviewed by the OIG team expressed dismay that VOA was no longer positioned
      to provide worldwide English-language news. The majority of CN staff members,
      most of whom come from a radio journalism background, characterized manage-
      ment’s efforts to increase television production as poorly planned and dramatically
      underfunded. The fact that resistance among CN staff to these programmatic
      changes was so high is indicative of the need for improved internal communication
      both within CN and between CN and VOA, IBB, and BBG leaders.

           During the inspection BBG/IBB organized a series of meetings to brief CN
      staff (and other VOA employees) on the 2008-13 BBG Strategic Plan in order to
      seek buy-in to the profound business practice changes this plan would bring about.
      BBG/IBB management contracted with the Ofﬁce of Personnel Management
      (OPM) to conduct focus groups on the survey results to assist the agency in iden-
      tifying actions to be taken in response and to discuss morale issues in an effort to
      deal with concerns that have eroded job satisfaction (as evidenced by BBG/IBB low
      ranking on the Federal Human Capital Survey). On July 10, 2007, BBG held a town
      hall meeting to introduce the new Chairman of the BBG where an open question

4 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                   SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




period was welcomed. While these initiatives are to be commended, BBG manage-
ment does not have an on-going communication mechanism that ensures that CN
staff members fully understand the BBG strategic vision and understand the opera-
tional plan designed to meet the goals and objectives of the strategic vision.



   Recommendation 1: The Broadcasting Board of Governors, through the
   International Broadcasting Bureau and Voice of America management, should
   develop and implement an internal communication strategy, building upon and
   institutionalizing the brieﬁngs begun in May 2007, to introduce the staff to the
   2008-13 Strategic Plan and to educate staff members about the structure and
   roles of the various parts of the Broadcasting Board of Governors. (Action:
   BBG)



Morale

     The OIG team found morale within CN to be poor; a ﬁnding consistent with
the low ranking given to BBG/IBB in the most recent Federal Human Capital
Survey. When CN staff members were asked by the OIG team to name the causes
for the low morale in CN, the most common answers were the lack of transparency
in decisionmaking, lack of clarity as to the future role of CN, and concerns about
reductions in force (RIF), the diminution of CN’s traditional role as the preeminent
producer of news for distribution on all VOA services, and favoritism in choice as-
signments and promotions. Many women and minority employees were particularly
unhappy with the opaque way many promotions and assignments are handled within
CN. This report contains recommendations for ways to improve compliance with
EEO mandates as well as suggestions for improvements in transparency in allocation
of resources and assignments. The cause of the single most pervasive morale prob-
lem in CN, the lack of clarity as to the future role of CN and its staff, is one that can
be ameliorated by improved communication as described in the recommendation
above.

Generational Change

    The CN work force has been static for many years. Promotion opportunities
are limited, and staff members tend to stay in their positions for an extended time,
with many having more than 20 years of experience at VOA. This gives the entity a
strong repository of institutional memory, but it also means that the existing work-
force is less welcoming and less comfortable with new technologies. The strategic


OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007      5 .


                       SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




      vision of the BBG and the desire of the new VOA Director to tailor CN production
      content to the media used in any particular target country make VOA’s traditional
      reliance on radio broadcasting outdated. As VOA looks ahead to possible RIFs due
      to elimination of certain programs or services, it is likely that senior staff members
      from those eliminated and/or reduced programs will seek places in CN, thus limiting
      even further management’s ability to attract staff members with strong backgrounds
      in these new technologies.

      Managing Change - New Technologies

          The BBG, IBB, and WorldNet television had been parts of the U.S. Informa-
      tion Agency (USIA). The Foreign Affairs Reform and Restructuring Act of 1998
      consolidated USIA into the Department of State (Department), effective October 1,
      1999. BBG and IBB were established as federal government entities independent of
      the Department. WorldNet television was created in the 1980’s as a USIA public di-
      plomacy tool to create persuasive studio-quality television programs for international
      audiences. VOA also had developed its own beginning television efforts, but as a
      journalistic enterprise subject to the strictures of the VOA Charter. Three years after
      the merger of VOA and WorldNet, although many WorldNet assets have been ab-
      sorbed by VOA television, the role and nature of VOA television, particularly in the
      work of CN, was still unclear. The OIG team found that this lack of clarity has had
      a negative impact on the functioning of CN and recommends that the BBG develop
      a business plan for the integration of television programming into its programmatic
      offerings (see Recommendation 10).

           The Internet is the future of international communication. VOA has created
      a web site to provide English-language news reports and to serve as a portal to the
      homepages of all 45 languages broadcast by VOA, as well as to other information
      about VOA. The web site offers audio and video ﬁles on demand, and live streamed
      video programs as well as text. But, as with television, the VOA organization and
      professional staff trained to reach the world with shortwave radio is having trouble
      reinventing itself into a 21st century multimedia operation that can make the best use
      of the Internet. The OIG team found that good work was being done with Internet
      innovation in several parts of the BBG/IBB/VOA complex. However, coordinated
      management, adequate funding, and sufﬁcient stafﬁng were not yet in place. The
      OIG team recommends that the business plan for the integration of Internet opera-
      tions into the wider television and radio programming of the agency approved on
      July 10, 2007, by the BBG’s VOA committee be given wide dissemination within the
      organization (see Recommendation 14).




6 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                   SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




     Resolution of the litany of problems listed above will require a strong leader, one
who is adept at managing change, to begin the process of creating a transparent and
equitable work place, to develop buy-in on the BBG Strategic Plan with its profound
operational changes, and to attract and retain key employees with the right mix of
skills. On July 7, 2007, the CN managing editor position was announced publicly for
open competition.



   Recommendation 2: Voice of America should require all bidders on the man-
   aging editor (Central News Division director) position to demonstrate a strong
   record of leadership skills and make this criterion an essential factor in the po-
   sition description requirements. (Action: VOA)




         There is a serious need for more comprehensive training for CN staff.
Professional skill development to equip the staff to deal with the BBG’s decision
to increase emphasis on television and the Internet, and training to address the
skills deﬁcit of the administrative staff were needed. There was also a remarkably
widespread lack of understanding of the structure and processes of the organiza-
tion. Staff and middle managers would be more effective and less confused if they
understood the decisionmaking process, the organizational structure and budget, and
the roles of the various parts. More effective program management and leadership
training are needed throughout the organization. In addition, EEO training is not
adequately encouraged by top management.



   Recommendation 3: The Broadcasting Board of Governors should assess
   training needs, both in professional and managerial skills, and develop a training
   plan and budget proposal to address documented weaknesses in the Voice of
   America Central News Division. (Action: BBG)




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007     7 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



      The Impact of BBG, IBB, and VOA Structure on
      CN Operations

            The confusion about who is in charge, described above, is exacerbated by the
      fact that the institutional functioning of CN as a part of VOA and of the larger
      structures of IBB and the BBG is ﬂawed. This inspection has underlined issues
      beyond the scope of this inspection that have been discussed in internal and exter-
      nal studies of BBG elements for several years. These have been raised in the Booz
      Allen Hamilton study commissioned by the BBG and in a number of OIG reports
      of inspections of individual domestic and overseas BBG ofﬁces.2 They are: that a
      complex management structure inhibits the ability of the organization to respond
      to needed change; that administrative guidelines are absent, outdated, or misunder-
      stood; and that failures of vertical and horizontal communication within the struc-
      ture have undermined the morale and efﬁciency of the organization.

              VOA often lacks the ability to respond to the fast-breaking changes in today’s
      media world. The institution, and particularly its Director, has limited authority to
      make decisions. The grantee broadcasters are self-contained, with their chief execu-
      tive ofﬁcers overseeing most of their administrative support services as well as their
      programming. The Director of VOA, however, only looks after programming and is
      dependent upon IBB for human resources, budget, procurement, marketing, engi-
      neering, and other administrative support.

             CN does not control its own resources (positions or funding), nor does it con-
      trol all the technology and equipment needed to produce its product. For example,
      while the Central Video Unit has some small digital cameras, it does not own or con-
      trol the professional level mini-cameras used to ﬁlm video material for its products.
      Likewise, the video editing studios it uses, and the professional cameramen who ﬁlm
      video products are controlled by the VOA Operations Directorate. Those language
      services that beneﬁt from targeted enhancement funds contribute to the funding of
      equipment and studios that, while not directly under their control, are expected to
      be used primarily by those services. As the heads of the Associate Directorate of
      Language Programming (LS) and VOA’s Operations Directorate hold a higher rank
      (associate director) than the CN chief (managing editor), there is a perception that
      CN needs have not been given the same priority as LS or Operations in the battle for
      ever-dwindling resources.



      2
       Booz, Allen, Hamilton: Final Report of the Voice of America and the International Broadcast-
      ing Bureau, Broadcasting Board of Governors, Vol I : Washington DC, July , 2006. pp. 16-19.
      66-69.


8 .                     OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



     Basic production unit decisions require extraordinary levels of approval and/or
clearance. For example, a simple decision to hire an employee to ﬁll an existing, au-
thorized position involves numerous steps and/or approvals that can require signa-
tures going all the way up to BBG governors. The BBG governors do not normally
reside in Washington, and most perform their functions via e-mail and telephone,
meeting as a group just once a month. Decisions move slowly through this complex
process, resulting in delays, lost opportunities, and frustration on the CN work ﬂoor.

     The CN administrative unit supports other parts of VOA and IBB. For example,
the administrative program manager of CN was the contracting ofﬁcer for many of
the language services. This overlapping of responsibilities combined with a reported
lack of transparency, and the fact that budget decisions affecting CN operations
have been made without ﬁrst consulting CN meant that CN units were not able to
conduct forward planning or devise long-term strategies. CN directors, tradition-
ally senior journalists, had ceded the management of resources to the administrative
program manager, who was considered by some staff to be competent and innova-
tive, and by others as prone to favoritism and highly secretive. The fact that VOA
did not have up-to-date written administrative policies and procedures had given the
administrative ofﬁcer wide latitude to decide which proposals should be funded and
which not.

   Recommendation 4: Voice of America should hold the managing editor
   (Central News Division director) responsible for all administrative and budget-
   ary decisions taken in the Central News Division and accountable for adhering
   to best management practices. (Action: VOA)



Managing the Workplace Overseas

    In addition to CN, a number of IBB elements and various language services
maintain overseas ofﬁces to support their programs. BBG-funded grantee organiza-
tions such as Radio Free Europe/Radio Liberty or Radio Free Asia also maintain
overseas operations. In some countries these entities have colocated to save U.S.
government funding while in others, the grantee organizations have leased and oper-
ated separate premises in order to emphasize their nongovernmental status. Some
of the LS correspondents received support from the CN administrative program
manager and staff that she oversees – primarily related to funds management. Over
time, due to the fact that this ofﬁcer was viewed by those serving overseas as being
more responsive and more professional than the designated IBB or VOA support
organizations, the CN administrative support ofﬁce took the lead on assisting and
overseeing contracting, human resources, procurement, ﬁnancial management, and


OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   9 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       leasing work for CN, and to some extent non-CN organizations operations overseas.
       This expansion of duties did not appear to have been under the active control of the
       CN director, nor did there appear to be an effective system of internal controls in
       place. Decisions as to optimal locations for overseas operations were made without
       a comprehensive cost-beneﬁt analysis and without reference to the extensive over-
       seas experience held by other Foreign Affairs agencies of the U.S. government.



          Recommendation 5: The Voice of America should develop and implement a
          sustainable and transparent plan for the support of each of the Voice of Amer-
          ica’s overseas operations, to include the implementation of effective internal
          controls mechanisms. (Action: VOA)



       The Firewall

            CN reporters and editors guard their journalistic independence. They speak of
       the VOA Charter and the concept of a “ﬁrewall,” protecting their work from politi-
       cal interference with a fervor rarely seen in government operations. Americans in
       and out of public life often argue that VOA should be more aggressive in promot-
       ing U.S. government policy. They may be unaware that VOA, by law, is supposed to
       present “accurate, objective, and comprehensive” news and to represent “not any
       single segment of American society, and will therefore present a balanced and com-
       prehensive projection of signiﬁcant American thought and institutions,” with only
       limited and clearly identiﬁed editorial comment. (See Attachment C, The Voice of
       America Charter)

             A number of CN staff members reported pressure from previous senior VOA
       management and from individual governors sitting on the BBG to change the tone
       of news reporting on the war in Iraq, environmental issues, etc. Those staff mem-
       bers who cited such pressure were not able to provide the OIG team with evidence.
       Many felt that the CN reporters and editors had operated under a system of self-cen-
       sorship in order to avoid perceived problems with upper management. This self-
       censorship had a corrosive impact on morale and, in their opinion, diminished the
       journalistic integrity of CN reporting. At the same time, the Governors who sit on
       the BBG see themselves as the true guardians of the “ﬁrewall” fending off pressure
       from the Executive or Legislative branches to compromise the VOA Charter. The
       U.S. Code section establishing the BBG, USC § 6203, stipulates that the Inspector
       General “shall respect the journalistic integrity of all the broadcasters covered by this
       chapter, and may not evaluate the philosophical or political perspectives reﬂected in


10 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



the content of broadcasts.” In accordance with this stipulation, the OIG team did
not attempt to review the journalistic content produced by CN.

    CN staff members reported that the new VOA Director who assumed his duties
only months before the start of the inspection has already had a positive impact on
morale in CN. Reporters and managers report that he has “protected” them from
political interference in their work and has allowed them to concentrate on their
work. Whether these allegations of past political interference in the content of
news reporting are true or not, the fact that the perception is widespread warrants
efforts by VOA upper management to bring the issue out in the open and to make
clear that the “ﬁrewall” applies equally to BBG and IBB upper leadership. The OIG
team made an informal recommendation that the VOA Director engage staff in an
open discussion to outline his vision of what falls within the “ﬁrewall” and what falls
outside of it.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007    11 .


                       SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





12 .    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


       SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





               THE CENTRAL NEWS DIVISION


Central News in the Context of BBG/IBB/VOA Operations

    For 65 years, VOA has been the best known U.S. government-funded medium
of communication with the rest of the world. It was a powerful weapon in winning
the Cold War. Its standard of journalistic integrity and professionalism was widely
recognized. The VOA’s CN and its antecedent ofﬁces have been seen as the heart of
the agency.

    VOA has grown to become a network of 45 language services that produce
radio programming in shortwave, medium wave (AM) and frequency modulation
(FM) bands as well as television and Internet programming. VOA programs are
transmitted via satellite, from U.S. government-owned transmitters in different parts
of the world, and via more than 1,200 afﬁliate radio and television stations that
place VOA programs among their broadcasts. Although numbers change daily, in
April of 2007, VOA had over 1,100 full-time employees around the world. This
included 14 overseas bureaus in major world capitals, 22 domestic and 16 overseas
correspondents, 31 locally employed staff, and more than 90 freelance “stringers”
acting as reporters.3 The audience for VOA programming is estimated to be over 115
million people each week. CN is the hub of this vast operation providing the core
radio and television news articles for all of the 45 language services, including the
English language service.




3
 VOA domestic news bureaus are in Houston, Los Angeles, Miami, New York, and Washington,
DC, with the greatest number of reporters (16) being in Washington. Overseas bureaus are in
Bangkok, Beijing, Cairo, Dakar, Hong Kong, Islamabad, Jakarta, Jerusalem, Johannesburg, Lon-
don, Moscow, Nairobi, New Delhi, and Seoul. VOA has tried to keep a correspondent presence
in Iraq full time since 2003.


OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007         13 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




           VOA does not exist in a vacuum; it is part of a larger community of U.S. govern-
       ment international civilian broadcasting. VOA covers the news of the world and for
       many years was a part of USIA’s effort to “tell America’s story to the world.” Early
       in the Cold War, grantee (or “surrogate”) radio efforts such as Radio Free Europe
       and Radio Liberty began to direct programming to “captive peoples” giving them
       news of events inside their own countries from a perspective different from the
       regimes they lived under. The grantees may have broadcast in some of the same lan-
       guages as VOA, but their mission was different. Thus today, more than 75 language
       services (both direct government and grantee) make up BBG’s complex of broadcast
       languages, broadcasting material in a total of 60 different languages, 45 of those
       languages broadcast by VOA.4

            By 1994, with the Cold War over, in an effort to streamline and economize, all
       civilian U.S. government broadcasting was brought under a single BBG with a nine-
       person, bi-partisan board nominated by the President and conﬁrmed by Congress.
       Its individual members, usually coming from successful careers in private sector me-
       dia, have sought to bring modern marketing and programming strategies to govern-
       ment broadcasting.

          BBG has oversight of: (1) The nonproﬁt grantees and (2) the two federal gov-
       ernment entities: the VOA and the Ofﬁce of Cuba Broadcasting (Radio and TV
       Marti).

              The grantees are funded to do much of their own broadcasting, administrative
       support, evaluation, and programming. The two federal entities receive administra-
       tive (such as personnel, contracting, and security); program (marketing and perfor-
       mance review); and engineering (transmission and information technology) sup-
       port through the IBB. IBB provides differing degrees of engineering and program
       support (transmission, security, and marketing) to Radio Free Europe/Radio Liberty
       and Radio Free Asia, Radio Sawa, and Alhurra. The BBG includes the grantees in
       its worldwide audience research contracts with Intermedia. But while there may be
       occasions in different parts of the world where VOA shares facilities, equipment, or
       information with the grantees, it has no authority over grantee policy or content.




       “BBG Broadcast Languages and Language Services” chart, prepared by BBG, July 17, 2007.
       4




14 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



     The BBG’s broadcasting network is vast and complex. A network of transmit-
ting stations and satellite networks operated by IBB, along with some leased stations,
sends VOA’s programs instantaneously around the world. VOA alone produces
more than 1,000 hours of programs each week. Twenty-three of VOA’s 45 language
services, including English, are broadcast on television as well as radio. Programs are
broadcast from the VOA headquarters in southwest Washington, DC from 27 radio
studios, 33 production and recording studios, 30 professional audio mixing and dub-
bing stations, four television studios, 21 video editing suites, and facilities for master
control, recording, scheduling, and feed intake. VOA has the largest integrated digi-
tal audio system in the world.

Central News, at Home and Abroad

    CN works out of a 30,000 square foot news room staffed 24 hours a day, 365
days a year, providing between 150 and 200 news reports per day for all language ser-
vices and programs. Program content includes news, features, education, and culture
in documentary, discussion, and call-in formats, both live and prerecorded. CN
coordinates the work of its 207 people around the world to produce text, images,
and television product to serve the 45 VOA language services. These materials are
made available throughout the BBG network via the “house wire.” VOA employees,
using their internal Intranet system can go to the News in English Broadcast Wire
(NEB) to ﬁnd the articles they need. These products are all double-sourced to the
high standards of VOA’s editors, and ready to be translated and ﬁt to the speciﬁc
needs of a particular language service.

         In the past, CN senior professional radio journalists produced the text and
all the language service did was translate and read the news. The Central Video Unit
and the new Internet unit were created to play a similar role. Today, however, some
of the language services are staffed by world-class journalists, television profession-
als, and webmasters who rely less on CN. Some of those services have received
added staff and funding as Congressional or Administration priorities shifted and
VOA has sought increased resources for priority languages. The increase of re-
sources for some language services has further reduced their reliance on CN. As CN
resources have been cut in recent years and key positions left vacant, CN staff and
management are left unsure of their future role in VOA.

     The CN Division managing editor leads ﬁve units: the Assignments Desk Unit
that ensures that its foreign and domestic correspondents, and all CN reporters, and
background writers provide quality on-the-scene coverage and in-depth reports; the
Central News Service Unit regional desk writers and editors who furnish the infor-
mation for the CN on-line compilation of news reports for use by the language ser-


OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007       15 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       vices; the Central Video Unit that creates short television items and longer television
       packages for use by the language services; the Focus Unit that contributes daily long-
       format (six minutes in length) news analyses; and the Webdesk Unit that ensures that
       VOANews.com carries the full range of news products produced in English by CN.

           Changes to the roles of VOA bureaus in London and Hong Kong have had an
       impact on the morale and operating conditions of Washington-based CN staff. In
       order to assure European coverage and a 24-hour editing capability, the London
       regional production center had a technical staff, a correspondent, and two editors
       whose responsibilities included Europe, Africa, and the Middle East. In July 2004,
       VOA brought the editing functions back from London to Washington. The move
       has caused mixed feelings among staff and left the London bureau with excess leased
       space.

             In the following year, VOA expanded its news production from Hong Kong in
       order to address difﬁculties stafﬁng the CN night shift in Washington. The theory
       was that while most people slept in Washington, it was daytime in East Asia, and
       writers and editors in Hong Kong could augment CN’s 24/7 news room and Eng-
       lish language web site stafﬁng during prime time news hours. A request to fund this
       project appeared in the January 2006 expenditure plan proposed to Congress. It was
       not approved, but while waiting for approval, stafﬁng did shift in Hong Kong and
       contractors were hired. By the time of this inspection, the new Director of VOA
       had begun to execute a plan to pull back from Hong Kong some portion of its re-
       sponsibilities.

           VOA leadership found that supporting an expanded staff and an ofﬁce in Hong
       Kong proved to be more expensive than expected. Few VOA employees wanted to
       move there. The original plan was based on the assumption that qualiﬁed journalists
       could be hired locally in Hong Kong without the need to offer a full overseas beneﬁt
       package. However, senior CN staff reported to the OIG team that the U.S. income
       tax implications of direct-hire positions and the complications of obtaining a U.S.
       security clearance made it problematic to identify and hire overseas-based qualiﬁed
       correspondents. The BBG FY 2008 budget proposed cost reductions to include
       bringing the Hong Kong editorial function back to Washington. The Resource Man-
       agement section includes a further discussion of the Hong Kong ofﬁce.



       THE NEW CENTRAL NEWS ROOM
           Over the last three years, CN has experienced physical changes that have con-
       tributed to differences in the way the staff works. In February 2004, VOA unveiled

16 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



a state-of-the-art news room that brought together all of VOA’s radio, television,
and Internet professionals along with studios, edit suites, and intake facilities. Many
on the assignments desk and other CN unit staff expressed dismay with the physical
set-up of the news room. It is visually attractive and makes a lively backdrop for the
open television studios used by different language services at one end. But prob-
lems of street noise, wiring, heating and air conditioning, and lighting have yet to be
resolved. The assignments desk staff is seated next to the television studio used by
the language services. During television broadcasts, the area is uncomfortably cold.
Assignments branch staff also say that they must be quiet when television is on the
air. This has caused problems because the assignments desk has to ﬁeld overseas
telephone calls where the connections are not always clear, requiring raised voices.
The Webdesk and other subsections of CN make the same complaints. The assign-
ments desk would like to be closer to the area of the Washington correspondents.
VOA management said that it is reviewing the problem. There was discussion of a
Plexiglas partition around the television studio. But on June 29, 2007, VOA man-
agement put a hold on the partition. They will attempt to control the noise ﬁrst by
placing audio bafﬂing in the ceiling.



   Recommendation 6: The International Broadcasting Bureau, in coordination
   with the Voice of America, should resolve the issues of noise and temperature
   control in the news room. (Action: IBB, in coordination with VOA)




CENTRAL NEWS DIVISION MANAGEMENT CHANGES
     From 2004 to the present, the frequent and sudden turnovers in VOA manage-
ment have contributed to the sense of confusion and alienation among the CN staff.
As management changed, so did CN procedures. In July 2004, the VOA Director
at that time had reorganized CN, adjusting shift schedules, replacing the managing
editor, and changing the duty editors to supervising editors with enhanced authority.
VOA also redeﬁned television’s role in CN; initiating a selection of television news
pieces twice a day on a schedule designed to ﬁt the needs of those language services
which had television audiences. Integrating television and radio took on increas-
ing urgency at VOA. In September 2005, the Associate Director of CN, who had
directed many of these innovations, left after a little over a year on the job, leaving
reorganization plans unimplemented. His position has never been ﬁlled.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007    17 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



             In some cases, the titles of managers have changed, causing confusion about
       the chain of command. There have been two managing editors of CN, an associate
       director for Central Programming (a new title used by only one person but vacant
       since 2005), a senior supervising editor (a title allegedly created for one person who
       has moved on to be a senior advisor for news in the VOA front ofﬁce), a manager
       of the Central News Service, and an assignments desk chief. The assignments chief
       currently is ﬁlling the critical positions of acting managing editor of CN and acting
       manager of the Central News Service. There have been similar turnovers for manag-
       ers in the Web and Central Video Units.

             Thus, by June 2007, CN had no associate director and an assignments editor
       who was acting in the capacities of managing director for both news and programs,
       as well as chief of the assignments desk. Additionally, the division had lost the ser-
       vices of the experienced administrative program manager.



       VOA CENTRAL NEWS ASSIGNMENTS DESK
            The CN assignments desk in Washington is staffed 24 hours a day by its 11 edi-
       tors. Those editors deal directly with reports prepared by all domestic correspon-
       dents, including Washington “beat” reporters. They also deal directly with reports
       from Latin America, Europe, Africa, and the Middle East as well as Asian copy
       whenever the Hong Kong Regional News Center is closed. All bureaus, reporters,
       stringers, and assignments editors report to the chief of the assignments desk.

           Editors make assignments based on daily meetings with CN management and
       representatives of LS. While they assign stories to correspondents, they also accept
       suggestions for possible stories from correspondents and stringers. After editing
       scripts, the desk sends them back to be voiced by the correspondent.

       Changing Priorities

           Assignments desk staff expressed frustration at having unclear priorities and no
       speciﬁc goals in this period of increased focus on television news by VOA leader-
       ship. The only written guidance that today’s assignments staff has for reference is
       IBB’s MOA Section 380.14, dated 1999. An assignments desk editor was recently as-
       signed to integrate radio and television in the assignments desk process. Some staff
       members still feel confused by an evolving and ambiguous chain of command. In
       one example of the confusion, a production specialist was given conﬂicting assign-
       ments for both radio and television and did not know which manager could set the


18 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



priorities. Assignments desk personnel must juggle the schedules to accommodate
breaking news, planned programming, and now both radio and television.



   Recommendation 7: The Voice of America should develop and implement
   standard operating procedures for the Central News Division assignments desk
   staff to follow in deciding how to prioritize taskings. (Action: VOA)



Assignments Desk Direction of Stringers

     The assignments desk manages the work of freelance reporters (stringers). As
the number of VOA correspondents dwindled due to reduced budget and changes
in the roles of overseas correspondents, VOA increasingly came to rely on stringers
for worldwide coverage. Staff on the assignments desk and correspondents them-
selves report that it is crucial to identify and cultivate stringers. New stringers need
to be mentored and encouraged. As the number of VOA news bureaus worldwide
gets smaller, it has become harder to cultivate these relationships from long distance.
Assignments desk editors, overseas correspondents, and language service manag-
ers informed the OIG team that they considered stringer pay rates to be inadequate.
They said that the pay rates are lower than those paid by VOA’s competitors and
that decreasing contact with stringers posed the likelihood that loyal stringers would
be harder to ﬁnd and maintain, especially on short notice. In the course of OIG
inspections of VOA facilities, OIG teams have found that VOA overseas bureaus
faced problems in competing for stringers when paying them at the current IBB
rates. IBB’s Contracting for Talent & Other Professional Services Handbook (2004) sets the
payment rates for stringers. The handbook was updated by memorandum in 2005
to provide a price increase for videotape recording technicians and to add or re-
vise categories for television personnel. It did not raise any other rates at that time.
However, CN administrative staff stated that the rates could be waived when there
was adequate justiﬁcation.



   Recommendation 8: The International Broadcasting Bureau should review
   and revise, if found appropriate, its payment rates for freelance journalists, tak-
   ing into account international competition and Voice of America’s increasing
   reliance on such journalists for worldwide news coverage. (Action: IBB)




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007       19 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       Coordination of Assignments

           A large part of the tasks of the assignments desk is to coordinate news coverage.
       Overlaps occur when a language service covers its own story but does not inform
       the desk. Overlaps can also occur when CN managers make assignments without
       informing the assignments desk. This has happened for television coverage during
       the early stages of incorporating television news. Assignments desk staff said that in
       the past some frustrated correspondents went directly to managers and skipped the
       assignments desk. The result of uncoordinated coverage is wasted resources and,
       some say, embarrassment for the correspondents who show up at an event to ﬁnd
       there are three or four VOA elements covering the same thing.

           CN has a number of procedures to coordinate and track assignments. There are
       morning and evening editorial meetings of division directors to discuss coverage. LS
       personnel are at these meetings. There is an on-line “Insights” listing where cor-
       respondents can record what they are working on as well as deadlines. There is also
       CN’s daily on-line line-up of the 10 top stories. Each day the assignments desk uses
       the Reuters daybook, a listing of the top stories to be covered. The desk provides
       a weekly “look-ahead.” In addition, the chief assignments editor and his unofﬁcial
       deputy send out notes to the assignments desk and the Washington correspondents
       for the next day’s stories. There is also a group e-mail for the Washington corre-
       spondents to post what they are working on and to share information.

           IBB’s Ofﬁce of Performance Review (P/R) recommended in September 2003
       that VOA’s Central News File and NEB-issued Correspondent Reports “consider re-
       vision of management systems and telecommunications and computer technologies
       used for interaction between news providers and news consumers, including patterns
       and schedules for VOA and news room editorial meetings.”

           The assignments desk is looking at electronic ways to plan and track work. Im-
       mediately prior to this inspection, it began piloting a commercial service that looks
       promising. The service includes a calendar of topics and Internet links for sources
       and information. The assignments desk has also looked at a commercial product
       to plan television coverage. Television planning is crucial because so much must
       be done in advance. The desk has also considered an in-house spreadsheet used by
       one of the language services to track who is covering what. There appeared to be
       no off-the-shelf software that will work for all of VOA’s language services and the
       assignments desk. Fortunately, after much comparative testing by July 2007, CN and
       LS agreed upon a commercial program. The price was very good, and the need was
       great. CN, although its funds were limited, purchased the program for all of VOA.
       Only four of the 40 “sign-ups” actually reside in CN. In future years, CN hopes to


20 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




have the language services and other ofﬁces of VOA who will use the greater share
of this service, pay for their share.

     IBB/E, and the Policy and Planning Division, have had ad hoc meetings to study
what technology might help. An information technology (IT) manager said that
IT was reviewing the possibility of creating an Intranet portal for daily basics such
as coverage coordination. The study is ongoing. IT has also bought MicroSoft’s
SharePoint that may be of use in resolving this problem in the future. In addition, a
proposed migration to Microsoft Outlook and Exchange could allow group schedul-
ing.



   Recommendation 9: The Voice of America should devise and implement
   both procedural and technological solutions to track news assignments, includ-
   ing television, to avoid redundancy, and to ensure adequate coverage. (Action:
   VOA)




VOICE OF AMERICA WASHINGTON CORRESPONDENTS
    VOA headquarters in Washington has the greatest number of staff correspon-
dents. They cover the White House, the Pentagon, the Department, and Capitol
Hill. Others do background work and miscellaneous assignments, such as science
or economics. In interviews and personal questionnaires, the correspondents were
referred to as the “jewels in VOA’s crown.”

Need for Regular Meetings of Washington
Correspondents

     Washington correspondents reported that they do not see each other regularly.
There are no regularly scheduled meetings. Six of them do most of their work in
press rooms at their assigned site and only occasionally come to VOA headquar-
ters. Three correspondents suggested independently that it would be helpful to
have brown-bag lunches or some other regularly scheduled meeting to discuss big
issues and help each other with angles for stories. A regular meeting would enhance
camaraderie. The chief assignments editor called it an excellent idea. “Everyone
hates more meetings, but this would give the correspondents a chance to talk over
ideas, stories, and assignments.” The OIG team informally recommended that CN
institute a periodic meeting of the Washington correspondents. The meeting could

OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   21 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       take place in an informal setting, such as a “brown bag lunch” and should provide
       correspondents the opportunity to communicate about ideas, stories, assignments,
       and other pertinent issues.



       VOICE OF AMERICA CENTRAL NEWS SERVICE AND THE FOCUS
       UNIT
       Writers and Editors

            The writers and editors section of the VOA Central News Service is composed
       of nearly 50 employees. There are normally eight duty editors that oversee an online
       compilation of news reports for use by LS. A recent death and a resignation have
       left two vacancies. The duty editors act as watch ofﬁcers, with at least two manning
       each shift. There are usually 14 copy or regional editors and about 23 writers. There
       is also a small sports section of four writers. The three-person Focus Unit, the re-
       mainder of a much larger operation responsible for news analysis pieces, is ofﬁcially
       separate, but is generally seen as part of this news room community.

              The pool of talent in the Central News Service is formidable and encompasses
       an array of experience, from the Kuralt Fellow who is well-versed in the latest broad-
       cast journalism technology, to the news room veterans. Despite the range of con-
       cerns expressed by the writers as a whole, their commitment to their mission remains
       strong.

            On a daily basis, the writers sift through the news from different wire services to
       ﬁnd interesting stories that translate well to a radio broadcast. Their work product is
       wire copy, which is essentially a 40-second radio piece covering a news item. These
       are passed to the copy and regional editors and ﬁnally to the duty editors for correc-
       tion and approval. As news disseminators, they work in a unique niche in the indus-
       try since they generally do not engage in the news gathering function, which is left to
       correspondents and individuals who are assigned special in-depth reporting projects
       from time to time.

       Sports Desk

           The sports desk performs a unique function in CN because the writers and the
       editor who work on the desk combine practical news room experience with special-
       ized knowledge of sports and the attendant rigors of sports reporting. The sports


22 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




desk writers not only write wire pieces, but they also broadcast from the ﬁeld during
major sporting events. Their work product often demands travel to sporting com-
petitions around the world as well as domestically. However, the writers report that
their position descriptions do not reﬂect the full array of their work responsibilities.
See the Management section for a discussion of this issue.

Kuralt Fellows

    The Kuralt Fellows program is an entry-level recruiting program that each year
brings in one talented writer from the University of North Carolina at Chapel Hill.
This program entails a variety of rotational assignments during the one year fellow-
ship, allowing the Fellow to work with the Central Video Unit, on the Webdesk, in
CN writing wire copy, or overseas as a correspondent. Other writers would like to
have the same opportunities but cannot get permission to take the time away from
their jobs to participate in the kind of career enrichment activities that are available
to the Fellows.

The Central News Radio Tradition and Voice of America’s
Shift to Television

    There is great concern among the CN staff about VOA leadership’s efforts to
expand into television broadcasting. Although individual writers are intrigued by the
concept, the majority of the staff interviewed by the OIG team was worried about
the implication of this shift on the organization and their jobs, and the capacity of
the organization to make the shift. Linking a new emphasis on television with the
proposal to eliminate the English language service, as English language radio writers,
editors, and reporters, they were worried about where they, and the products they
create, would ﬁt.

    Most correspondents, writers, and editors, as well as enthusiastic supporters
of increased VOA television broadcasting, felt strongly that the radio branch of
the operation should be maintained at full capacity in order to continue to reach
an important audience in the developing world, as well as to preserve VOA brand
recognition. They expressed dismay about television programming that LS makes
to order for independent, overseas television stations (such as the English service
does for India’s Aaj Tak network) which interlocutors understand that VOA pays to
run the stories but which often do not display the VOA logo. Productions are also
dependent on local afﬁliates for transmission and may be refused or censored at will.
Many CN staffers were critical of the quality of the current television products from



OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007     23 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       both LS and the Central Video Unit as compared to other commercial and govern-
       ment broadcasters already in the market. The concerns about past efforts to turn
       radio professionals into one-man-band video journalists (VJs) were raised in many
       interviews during this inspection and in ﬁeld inspections such as the September 2005
       Broadcasting to Pakistan inspection. Current VOA leadership is moving away from
       the solo VJ concept.

           CN interlocutors were unclear about the overall agency plan for television and
       how they and their colleagues could adapt to the different skills required for tele-
       vision production. There was confusion among correspondents as to how long
       reports should be or what kind of deadlines to expect or whether to prepare “hard
       news” or “in-depth stories.” Some correspondents were concerned that journalistic
       standards in the VOA Charter and the two-source rule were difﬁcult to achieve in a
       short television report.



       IMPACT OF NEW TECHNOLOGIES: (I). THE CENTRAL VIDEO UNIT
       Structure

           The organizational structure within which CN operates has complicated televi-
       sion operations in a way that keeps it from meeting the expectations of BBG and
       IBB/VOA leadership. While it is understood that the BBG wants its broadcasters
       to move aggressively into television, neither the nature of such movement nor the
       speciﬁc operational plan has been made clear to the professional staff members who
       are to implement this massive shift. The scope of work for this inspection was to
       evaluate the existing situation, in which CN combines radio and television functions.
       At the time of this inspection, in addition to the video created in CN by the Central
       Video Unit, nearly two dozen different language services had invested in their own
       television production components as part of, and in addition to, their primary radio
       functions. The BBG Policy unit also produces its own television programs. This
       generation of television products by 23 separate elements of VOA poses special
       problems.

           VOA Central Video Unit does not produce, transmit, or market its own material.
       Central Video produces video segments that then are offered to LS, which may or
       may not elect to use them in their programs. Thus Central Video does not produce
       actual programs. Programs are produced by the language services and transmitted by
       IBB/E. Some are marketed by IBB’s Ofﬁce of Marketing and Program Placement.
       At the time of the inspection, no one on the VOA staff could give the OIG team a


24 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




clear idea of how much of the institutional budget was going into these 23 different
television-producing entities. On July 3, 2007, the CFO did provide estimated re-
sources supporting television programming, which has been included in Attachment
D of this report.

    For years, VOA had been organized around its channels of distribution, radio
and television. Now, as many commercial networks have done, it is reorganizing to
focus on markets. This shift from channel of distribution to market focus is not an
easy one for the long-term VOA staffers.

    IBB provides support through a separate chain of command. Thus, while the
BBG encourages VOA to move into a multimedia world at a rapid pace, the realities
of bureaucratic structure and funding have produced a disjointed constellation of
autonomous, but not self-sufﬁcient, operations trying to achieve this massive change.



   Recommendation 10: The Broadcasting Board of Governors should ﬁnal-
   ize and disseminate to all parties involved a business plan for the integration of
   television into its programmatic offerings outlining, at a minimum, the current
   and future vision and goals, required stafﬁng and budgeting resources, equip-
   ment requirements, training plan, and its integration plans with the radio and
   Internet components. (Action: BBG)



Morale

    As a distinct entity within VOA, the Central Video Unit faces unique morale is-
sues. It lacks a sense of corporate culture. In 2004, WorldNet was eliminated and its
elements incorporated into various parts of the VOA organization. CN received the
part responsible for television news, which was designated the Central Video Unit.
In the course of the next two years, all regular English language program production
ceased. This radically changed the mission of the unit. During the WorldNet era,
the television news staff produced original, regularly scheduled programs. Since in-
corporation into VOA, the television news function placed in CN has been recast as
a service provider to the language services. Several staff members expressed dismay
over their perceived reduced status.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   25 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           Central Video Unit stafﬁng has declined. In February 2005, Central Video had
       34 employees. By May 2007, it had but 20 with vacancy announcements open for
       two unﬁlled positions (positions converted to create camera/editing jobs). The
       changed mission of the Central Video Unit with its diminution of responsibility, as
       well as loss of staff, has adversely affected morale.

            In addition, in 2004, the inclusion of the Central Video Unit as an integral part
       of CN merged formerly separate television and radio services together. Since the
       merger, CN management has not developed measurable goals and guidelines for
       the Central Video Unit. This issue is covered under Measurement of Outcomes,
       Recommendation 16. Moreover, CN is not, and has never been except for one year,
       led by individuals with television expertise. Consequently, decisions affecting the
       Central Video Unit are made by individuals who may lack the skills and experience to
       fully comprehend the unit’s operating requirements. Several staff members said this
       factor has had an adverse effect on the video unit because the television medium is
       so different from radio. Staff members argue that they are not fungible; time frames
       for producing television are longer; technical skills are very different.

           Past VOA and CN management had expected radio staff to convert to television
       production with minimal training, and in some cases, to continue their existing levels
       of radio responsibilities. It does not appear that the full costs of television produc-
       tion or the staff skills needed were taken into consideration. Consequently, some
       television-trained radio staff continued to focus largely on radio production. Central
       Video needed to hire new staff skilled and experienced in the television medium.
       But given limited budgets and hiring restrictions, radio managers have resisted sur-
       rendering slots to television professionals. Several staff members stated their under-
       standing that as WorldNet and other veterans retired, empty television slots went to
       other parts of VOA and Central Video became smaller. Some positions may have
       been eliminated as a result of budget cutting requirements; others may have been
       transferred to meet new VOA priorities. The impact on Central Video staff has
       been a sense of a loss of signiﬁcance in the organization.

       Services

            Central Video provides LS with four main services: VJs’ stories, custom stories,
       production capabilities, and clearinghouse facilities. Video-journalists travel the
       United States and the world creating stories for LS. The VJs’ stories also ﬁll critical
       gaps in contracted commercial news feeds by providing backgrounders and in-depth
       issue stories on items from the feeds. In addition, the VJs create stories on American
       life, society, and culture, all of which are important topics under the VOA Charter.



26 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



    The Central Video Unit initiates the ideas for most of the TV packages it pro-
duces, based on its own news meetings and on comments from the general news
meetings and additional meetings with the managing editor and CN and Assignments
chiefs. These are generally referred to as TV packages. They can be reported by a
VJ, or, increasingly, a reporter accompanied by a camera crew.

    “Custom Stories” -- The Central Video Unit also receives frequent requests for
speciﬁc stories from Language Service division directors or their program manag-
ers at the 9:30 a.m. and 4:00 p.m. general news meetings. Sometimes referred to as
“custom stories,” they too are issued as TV packages that can be reported by a VJ or
reporter and crew.

    “Production Capabilities” -- Strictly speaking, production capabilities (e.g., a
camera shooter and a producer/editor to complete production of the piece) are not
provided to the language services directly but are available to produce and edit pieces
done by News Division reporters.

    “Clearing House Facilities” -- This is a fairly recent but highly valuable produc-
tion and writing service in which Language Service TV pieces deemed of house-wide
interest are edited and revoiced in English for house-wide distribution by Central
Video Unit. The originating Language Service collaborates in this effort by provid-
ing English translation of the original piece.

Products

     Central News Video provides the house with three feeds a day. There are the
morning and afternoon CN ﬁles plus an evening compilation or “Comp Reel.” The
Comp Reel includes feature material and analysis in addition to straight news. The
feeds consist of materials of general interest that allow the language services to con-
centrate more on producing other reports for their target areas. This offers savings
in time spent writing, locating footage and selecting shots as they can be done once
for all and not once per language service. The feed products are ready to use upon
translation of the script, replacement of the English sound track, and integration of
the foreign language track with the video. LS produced television stories that have
house-wide interest are selected by the clearinghouse group for adaptation and reuse.
The group rewrites and reedits the stories so that they can be used by all language
services and distributes them as part of the evening “Comp Reel.” VOA plans to
replace the “Comp Reel” with the NewsFlow application, which will make stories
digitally available to the entire house as soon as they are produced.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007    27 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       Operations

           VOA’s current organization makes it difﬁcult to share production resources
       across services and divisions. The proliferation of VOA language services produc-
       ing or preparing some form of television programming has occurred without an
       equivalent increase in studio facilities or professional camera crews. It has not been
       unusual for multiple language services and/or Central Video to send staff to cover
       the same event resulting in duplicative efforts. While managers have explained that
       each crew may be covering the event from a different perspective and is aware of the
       concerns and is working to keep such duplication to a minimum, many CN television
       correspondents and language service staff reported occasions of redundant cover-
       age. As noted in Recommendation 9, the OIG team recommended that VOA review
       duplication of effort currently expended by CN and LS and develop an action plan
       to minimize redundancy.

           The movement to television has included the hiring of new staff and the train-
       ing of former VOA radio staff to be VJs. These operate as “one-man bands” with
       mini-cameras and Apple laptops, being the reporter, the videographer, and the editor
       in addition to ﬁling electronically from the scene of the action. At the time of this
       inspection, there were two technical problems related to these multi-skilled report-
       ers that VOA had not fully resolved: (1) the “Mac” laptops were not being serviced
       by IBB computer support staff; (2) VJs in both the domestic and overseas bureaus
       were unable to access the IBB visual archives and could not, therefore, produce a
       complete video package without this essential resource for images. The OIG team
       informally recommended that efforts to address these issues be pursued.

            Professional television camera crews, only about seven individuals, ﬁlm for both
       Central Video and all the language services but work for none of them. They are
       part of the VOA Operations Directorate. Consequently, the users can only request
       the crews’ services. With such a small camera staff and with the competing priori-
       ties of the Central Video Unit and the Division of Language Programming, requests
       cannot always be ﬁlled. The current level of stafﬁng is not in keeping with BBG’s
       desire to shift its emphasis towards more and better television programming. At the
       end of the inspection period, the director of VOA television was able to report that
       two vacant slots had been identiﬁed which would be ﬁlled by two cameraman/edi-
       tors for the Central Video Unit.




28 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



    The number of editing suites available for Central Video is inadequate because
the suites must be shared with the many language services, and the latter, apparently
because of time constraints to meet broadcast times, have priority. The result is that
Central Video gets to use the suites at the least desirable times. It is also assigned the
suites with the most antiquated equipment, which further impacts on the quality of
the unit’s product. This sometimes results in the failure of Central Video to produce
timely stories or products of a quality that LS can rely upon. NewsFlow, discussed
in a section below, is supposed to alleviate this problem when it is fully operational,
but during the period of this inspection, the competition for the editing suites, the
breakdowns of NewsFlow and the program material lost because of these issues
only became more serious.

    The smaller language services that produce television programs or feeds have
limited resources. They rely heavily upon Central Video. Under the current arrange-
ment, those language services that are currently receiving enhanced funding are able
to establish their own video staffs, and also have priority access to the editing suites
and other common services of the Operations Directorate. Better access to these
services by Central Video would have a beneﬁcial effect on the less-favored language
services and provide quality material throughout VOA.



   Recommendation 11: The Voice of America should develop and implement
   procedures based on objective criteria to achieve a transparent process for the
   allocation of professional camera crews and editing suites. (Action: VOA)



Unit Management

    The history of the Central Video Unit is symptomatic of managerial problems
faced by CN and much of VOA. Senior leadership wanted to expand television
capacity, but middle management did not have adequate resources. A series of CN
directors and VOA Directors and associate directors made changes in position de-
scriptions and organizational structures that are discussed above. As a result, the re-
sponsibilities of the Central Video Unit’s managers are not clear to the staff they su-
pervise. The unit is headed by a GM-15 executive producer and a GS-15 supervisory
editor. On their position descriptions, the management duties of each are stated, but
in discussions with the staff, there remains confusion about whom to go to for what.
Their employees referred to the two as co-managers. Some seemed to think the unit
had joint management; others were aware responsibilities were ofﬁcially separate, yet
said for practical purposes, there was joint management. Some individuals said one


OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007       29 .


                       SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




       of them was their rating supervisor, but the other gave them day-to-day direction.
       Fortunately, both managers have many years of television experience and are proﬁ-
       cient in the medium. They work well together, and this brings strength to the unit.
            (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)

              (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)(b) (6)
       (b) (6)(b) (6)(b) (6)(b) (6)(b) (6)


           Once again, the history of the unit plays a part in its morale. It is a composite of
       the remnants of the very different USIA WorldNet and VOA Television entities and
       of the ﬁrst attempts to create a cadre of VJs from existing staff members. The ﬁrst
       VJs came as volunteers from WorldNet, not hired from outside with television expe-
       rience. Some of the volunteers were motivated by unhappiness with their jobs at the
       time. During a long period of training, they were encouraged to work with complete
       independence. Few editorial, productivity, or even attendance regulations were en-
       forced. When higher management reversed this approach, the current unit managers
       were called upon to reintroduce production standards. Enforcing this change added
       to interpersonal tension in the section.

            As in other parts of VOA, employees speaking to the OIG team expressed a
       fear of challenging unit management by ﬁling ofﬁcial complaints or grievances be-
       cause of possible retribution. In Recommendation 26 discussed in the Management
       section of this report the OIG team recommends a comprehensive agency-wide
       response to these concerns.




30 .                      OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                      SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




   Recommendation 12: The Voice of America should clarify and publicize the
   responsibilities of the Central Video Unit’s managers, regularize the lines of
   supervision, and develop and implement a plan to ensure objective assignment
   procedures, and assure the continued use of appropriate language and adequate
   communication by unit management. (Action: VOA)



NewsFlow

    Numerous Central Video Unit staff members cited technical problems with
NewsFlow and also reported inadequate training in its use. Not yet fully operational,
NewsFlow is a video news room management system that will enable VOA news
production to move from analog to digital infrastructure. Digital will provide an
efﬁcient, high quality program production and delivery mechanism. IBB/E pro-
cured NewsFlow through a ﬁxed price contract awarded after open competition on
December 10, 2004. IBB acceptance testing of NewsFlow was done in July 2005,
and full acceptance was granted August 24, 2006. The cost was approximately $2.3
million. The OIG Report of Inspection of IBB/E issued in October 2006, reviewed
the contract and found no problems with the awarding of the contract.

    Currently, NewsFlow is used to ingest video ﬁles and to support the early stages
of editing. This allows content producers to screen satellite-fed and original video
content and to select material for use. When fully operational, NewsFlow will assist
in the management, processing, and broadcast of television video content and grow
into a principal video production workﬂow tool. Since full acceptance of the system,
the IBB/E and the IT Directorate have worked on software ﬁxes and enhancements.

    The question has arisen as to why in June 2007, almost a year after full accep-
tance, NewsFlow is not operating as envisioned. For example, on July 11, 2007, half
of the day’s work product could not be posted on NewsFlow due to an unresolved
problem with the program. Central Video Unit staff said there was limited con-
sultation with the end users, and the result at present fails to meet their needs. The
IBB/E stated that users’ concerns were addressed in the original contract. Indeed,
numerous meetings between IBB/E and CN managers were held to develop the
contracting bid package, but end users were rarely involved. VOA management
explained that the design phase coincided with the merger of WorldNet into VOA,
so some of the “television personnel” consulted ended up assigned to LS rather than
to the Central Video Unit. Further, IBB and VOA changed the requirements dur-
ing NewsFlow’s development, and the contractor failed to fulﬁll all its promises. As
reports of these problems spread through the agency, the reputation of NewsFlow
became worse than the reality.

OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   31 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



            An improved version of NewsFlow is scheduled for installation in July 2007.
       The question remains as to whether the result will meet end users’ requirements, or
       whether capabilities they expected were not purchased. NewsFlow is a critical tool
       needed to enable Central Video to move into the digital age. If NewsFlow does
       not meet needs upon becoming fully operational, CN must address this. A speciﬁc
       recommendation related to NewsFlow would not be appropriate at this time, as the
       system has not been ﬁnalized, but it is an indication of the lack of coordination be-
       tween IBB support elements and the units they support.

           Recommendation 15 in the Internet and Information Management section, ad-
       dresses the BBG-wide issue of end-users not being sufﬁciently involved in the selec-
       tion of equipment or programs related to their work.

           NewsFlow users in CN explained that training in the system to date has been
       insufﬁcient, and they do not understand how to use it properly. This is the time for
       management to address this lack training and to develop and implement a program
       to impart sufﬁcient technical knowledge to the employees who must satisfactorily
       implement NewsFlow.

          Recommendation 13: The International Broadcasting Bureau should develop
          and implement a plan to train the Central Video Unit staff in the necessary
          skills for using NewsFlow productively. (Action: IBB/E, VOA/CC)




       IMPACT OF NEW TECHNOLOGIES: (II) THE INTERNET AND
       INFORMATION MANAGEMENT
       Voice of America Central News’ Internet Presence

           The use of the Internet as an avenue to share and communicate stories and in-
       formation has increased signiﬁcantly in recent years. In addition to radio and televi-
       sion, the CN Internet staff has become a key component in providing important
       news and information to the public. As cited by VOA management, “the Internet
       provides an unlimited opportunity to reach audiences in every corner of the world,
       to communicate directly with the audiences without having to be constrained by
       third party intervention.” The main English language web site for VOA,
       www.voanews.com, is managed by a team of 11 individuals. The staff posts the
       most recent stories on the web site. Content for the stories is derived from news
       wires, and the team edits for style, checks facts, and adds photos and links.


32 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



    Despite the concerns voiced about television by concerned CN rank-and-ﬁle,
the Webdesk is widely hailed as an innovation that can further strengthen VOA’s
reputation. Some interlocutors have posited that the Internet could become a better
vehicle than television for video because it could provide inexpensive, live streaming
video broadcasts that could reach more people than satellite connections that have
been withdrawn in the past by foreign governments during times of crisis. Although
the Webdesk is very busy and tends to be understaffed, many writers were impressed
with the amount of work they manage to accomplish. There is a lack of communi-
cation between the Webdesk and the writers, and many writers expressed a desire to
know more about what the Webdesk would like them to do in terms of formatting
and style. The business plan suggested in Recommendation 14 should encourage
this communication.

    In early 2000, VOA management had created a Webdesk pilot project to establish
a successful permanent Internet presence within CN. After developing the concept
behind the English web site, the pilot committee presented their proposal to the
Director of VOA in May 2001. The proposal included several recommendations,
suggesting a staff of 30 people with a clear organizational structure for the Internet
group. According to the pilot committee, a staff of 30 would still be far below what
competing organizations may employ; however, it would be a starting point. The
members of the pilot committee found that a staff of 15 people would be insuf-
ﬁcient to process all the text, audio, and graphics that are necessary to make the site
consistent with VOA quality standards. The proposal also recommended that the
Internet group be part of the budget creation process so that senior management
could consider the spending priorities of those experienced with running the daily
Internet operations before making ﬁnal IT decisions for the organization.

    The pilot project was completed several years ago; however, the CN Internet
presence is still hampered by inadequate stafﬁng, resources, budgeting, and the lack
of a clear vision and goals for the Internet team. The current stafﬁng of 11 indi-
viduals in the Webdesk Unit is less than the number of staff during the pilot project,
yet they are expected to produce more content with advanced features. The Web-
desk unit does not participate in the budget process for the organization. As a result,
budget estimates and spending do not take into consideration the needs and require-
ments of equipment maintenance and purchases for producing and enhancing VOA’s
Internet presence. Most importantly, as this inspection period began, VOA had still
not established a clear direction of where they see the Internet progressing within
the organization and how the organization could enhance the interactive capabilities
of VOA’s Internet system and improve customer satisfaction.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007    33 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




            Other reviews have cited similar ﬁndings. For example, the Booz Allen Ham-
       ilton report from July 2006, stated that the organization needs a more detailed plan
       to outline priorities, major milestones, and strategies for enhancing existing Internet
       capabilities. In addition, the report stated that the development of technical capabili-
       ties will require major capital investment, as well as increased dedicated staff and will
       require signiﬁcant short and long-term prioritization and planning. The OIG inspec-
       tion report of IBB/E5 reported that the web presence is a stepchild to VOA’s tradi-
       tional broadcasting efforts, namely radio. The report also noted that VOA’s Internet
       presence appears to lag behind most of its competitors in style, content, presenta-
       tion, features, and readership.

           P/R performed a study of VOA’s English language program in March 2007.6
       The report highlights the increase in readership of the main English web site from
       around 14 million in 2004, to over 50 million and growing in 2006. The report notes
       that the Internet team is facing internal expectations to compete with other news
       broadcasting outlets such as the British Broadcasting Corporation and the Cable
       News Network – however, with less than one tenth of the staff needed. The report
       recommended that stafﬁng be increased, that expectations be reduced to allow more
       focus on quality than quantity, and that VOA reexamine the organizational structure
       so the Internet group is provided with enhanced coordination and management.

            The VOA Director has begun addressing some of the concerns cited by the
       OIG team and others. First, VOA management has highlighted the enhancement
       and organizational changes needed for the Internet component. Speciﬁcally, a docu-
       ment created by senior management mentions that VOA believes the Internet should
       be playing a much greater role in the distribution of their content to audiences by FY
       2009. Looking forward, VOA sees Internet incorporating radio and television, while
       lowering costs for transmission. To enhance the Internet presence, the document
       describes four key tasks which must be accomplished: 1) regular updating of LS sites,
       2) incorporating a full menu of interactive elements and making its content available
       on a variety of digital platforms, 3) having a centralized Internet team with a central
       budget and controls, and 4) having unprecedented cooperation between VOA’s Inter-
       net team and the IBB’s IT Directorate on the development and maintenance of the




       5
        Inspection of the International Broadcasting Bureau’s Ofﬁce of Engineering and Technical 

       Services, Report Number ISP-IB-07-03, October 2006. 

       6
        VOANews.com/English Program Review by the Ofﬁce of Performance Review, March 6, 2007.



34 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




web site, including improving functionality and design. A business plan was drafted
during the course of this inspection and was presented to the BBG VOA committee
and approved on July 10, 2007. The business plan will serve as a roadmap for VOA’s
use of new technologies, detailing goals and costs for the Internet and web-based
content.

   Recommendation 14: Voice of America should ﬁnalize and disseminate
   throughout Voice of America, the International Broadcasting Bureau and the
   Broadcasting Board of Governors a business plan for the Internet component
   outlining, at a minimum, the current and future vision and goals, required staff-
   ing and budgeting resources, equipment requirements, and its integration plans
   with the radio and television components. (Action: VOA)


    CN is also initiating a redesign of the VOAnews.com web site to enhance its
capabilities and to be more in line with its competitors. To continue to improve
readership, the Internet group began in early 2007, gathering feedback to identify any
enhancements necessary for the web site. The feedback was gathered from readers,
VOA web editors, and LS representatives, as well as from an analysis of site traf-
ﬁc and online surveys. The IBB IT Directorate’s Internet Services division is also
involved in the effort by providing support elements for the redesign initiative.

    Based on feedback, the Internet group is discussing ways to add features such as
polls and opinions to the web site to get the readers more involved. Also, increased
usage of audio and video ﬁles is being researched. For example, VOA has launched
a new daily video feature on the web site. A three and a half minute video web cast
is being produced by the English division and can be streamed live or downloaded to
media devices such as iPods for viewing. VOA hopes to increase readership among
the 18-35 year-old demographic by providing more informative and entertaining
daily news. The Internet group is also requesting staff to start looking into web
trends, such as how users navigate the site, what they look at, and key words used.
This will enable the group to determine how the web site could be better tailored
for its audience. During the OIG inspection, a meeting was held with representa-
tion from the VOA Director’s ofﬁce, LS, Webdesk unit, and editors. The meeting
brought together more than 50 individuals to discuss the status of the redesign effort
and to encourage active discussions on issues. The OIG team commends the effort
and encourages CN to continue with such meetings to ensure that user and system
requirements are met.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   35 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       International Broadcasting Bureau Support

           At the time of the OIG inspection, CN staff purchased equipment or requested
       speciﬁc IT applications and tools in an ad hoc manner. There were no formal poli-
       cies or procedures governing this process. As a result, staff members are either
       requesting equipment that is not compatible with the current infrastructure of the
       division or that does not meet the intended needs of the users. This issue was also
       identiﬁed during the 2006 OIG inspection of IBB/E. Both the 2006 and 2007 OIG
       teams found examples of new technologies purchased without coordination with the
       IT Directorate. The ofﬁces doing so had subsequently expected the IT Directorate
       to support these technologies, thereby straining the IT Directorate’s resources.

            Further, during the ﬁeldwork phase of this inspection, the OIG team heard
       complaints regarding the purchase and implementation of the NewsFlow system.
       As mentioned earlier in the report, NewsFlow is a system intended to assist in the
       management, processing, and broadcast of television video content. However, us-
       ers have mentioned that the system does not meet their needs. The OIG team was
       informed that the IT Directorate – which provides user, computing, Internet, net-
       work, and digital media support to VOA – had limited involvement in the purchase.
       As a result, the system does not address the intended need and is not completely
       compatible with the current infrastructure. The IT Directorate is addressing pend-
       ing issues with this system; however, similar occurrences can be prevented in the
       future through the development and implementation of formal procedures. IBB did
       issue an updated “house-wide” policy on IT purchases on April 27, 2007. However,
       there remains a need for a formal vetting process within VOA for all IT equipment
       requests and purchases to ensure that all requests go through appropriate manage-
       ment controls before being sent to the IT Directorate. Such a process will provide
       VOA management and the IT Directorate assurance that IT requests and purchases
       are in line with VOA management’s vision and goals for radio, television, and Inter-
       net components. A formal process, and management requirement that it be used,
       will allow the IT Directorate to ensure that equipment installations will function with
       existing hardware and software.



          Recommendation 15: Voice of America, in coordination with the Interna-
          tional Broadcasting Bureau, should develop, implement, and enforce a formal
          policy and procedures for staff requests for information technology equipment
          purchases and maintenance that assures both VOA division management and
          information technology approve the request. (Action: VOA, in coordination
          with the IBB)


36 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




    There is no formal policy within CN regarding the use of personal hardware
and software on VOA systems. The use of personal hardware and software on the
network can introduce viruses and other malicious software to the network, threaten-
ing the integrity or availability of data and the security of the entire VOA network.
This policy should come from the Chief Information Ofﬁcer; however, to date the
Chief Information Ofﬁcer has not developed an organization-wide policy on the use
of personal hardware and software on government networks, nor has one been dis-
seminated to all supported entities. The OIG team noted the need for such policy in
other reviews of IBB facilities. For example, in the inspection of IBB’s Philippines
transmitting station,7 the OIG team found that staff members were using personal
thumb drives on the network. In that inspection report, a formal recommendation
was made requesting that an organization-wide policy be implemented by IBB re-
garding the use of personal hardware on the IBB/VOA network. OIG reiterates the
importance of complying with this recommendation to the overall network security
of BBG.



MEASUREMENT OF OUTCOMES
    The National Strategy for Public Diplomacy and Strategic Communication
(May 31, 2007) stresses the importance of evaluation and accountability in designing
and sustaining information programs. Agencies are encouraged to establish a culture
of measurement to examine the effectiveness and impact of their efforts. Showing
evidence of effectiveness is becoming an increasingly important responsibility of
government.

    BBG is attempting to quantify the credibility of its broadcasts. One strategic
goal in BBG’s 2008 Performance Plan for Broadcasting Programming Support is
“contributing to the trustworthiness of news and information.” BBG has estab-
lished measures of credibility based on audience research.8 The performance plan,
echoing BBG’s Strategic Plan, stresses that “to remain competitive as reputable news
and information sources, the central news and news bureaus must remain committed
to the highest standards of journalistic principles.”




7
 Inspection of the International Broadcasting Board’s Philippines Transmitting Station, 2007.
8
 The credibility score is determined by the survey question about “trustworthiness of news and
information” of those sampled respondents who listened at least once a week to each station.”


OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007           37 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



              More difﬁcult tasks are to measure productivity and impact. CN can measure
       a stringer’s productivity because only reports that are judged acceptable for use are
       paid for. However, there is no comparable measure of a correspondent’s produc-
       tivity. Some background pieces take much longer to draft than quick news reports.
       Neither is there a measure for impact of news reports. This dilemma is under con-
       sideration by P/R as it strives for ways in which research surveys can assess impact.

           Effective, coordinated measurement of results of VOA products in radio, televi-
       sion, and Internet media is lacking. CN management has not developed measur-
       able goals or guidelines for the Central Video Unit. P/R conducts listener surveys
       through private sector contractors that indicate listener preferences and audience
       makeup. They prepare annual program reviews for each language service where the
       surveys are shared, where IBB/E reports on signal strength and transmission/recep-
       tion issues, where the Operations Directorate and the units of Central Programming
       discuss with LS various aspects of their cooperation. It is a chance to discuss each
       language service’s use of the products of CN, the Central Video Unit and the Web-
       desk. These efforts are useful in assessing content and quality of support desired by
       these services.

           They do not, however, address the impact of the programs on their audience, or
       suggest whether or where the stories are televised. Some stories considered relevant
       and of high quality by CN and Central Video are not picked up by any language
       service and, therefore, are not broadcast. Usage logs exist for recording what stories
       are used, but the recording that is done is often inconsistent. VOA management is
       aware of this issue and is working to minimize any waste of materials. More needs
       to be done, especially in the area of metrics and usage reporting.



          Recommendation 16: The Broadcasting Board of Governors, in coordina-
          tion with the Voice of America, should develop performance measures for the
          Central News Division and implement procedures to provide reports on usage
          and outcome (impact) of its radio, television, and Internet products. (Action:
          BBG, in cooperation with VOA)




38 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




THE CULTURE OF CENTRAL NEWS: COMMUNICATION AND MORALE
    The lack of communication between the BBG, IBB, and VOA management
on the one hand, and CN staff on the other, leaves many staff members uncertain
about the direction of VOA and their own future in the agency. These writers, edi-
tors, and correspondents are proud of their profession, but dislike the direction in
which their organization is headed. They are passionately committed to the VOA
Charter and the VOA mission, but their morale has been signiﬁcantly impacted both
by technological and societal changes affecting journalism worldwide and by VOA
leadership’s approach to communicating and managing change. While newer hires
are more sanguine about the future, there are many long-term staff members who
have lost hope of being promoted and lapsed into a despondent quietism, regarding
their jobs as a threatened sinecure. They set the tone for the CN community and the
mood that was recorded in BBG/IBB’s poor showing in the Federal Human Capital
Survey.

      There were concerns on the part of this knowledgeable, articulate, but disaf-
fected staff that pervaded most of the interviews and the responses to the OIG
questionnaires. These concerns often related to policies which are management
decisions. They were within the purview of BBG, IBB, or VOA managers and not
that of the CN Director. But because of the intense commitment of the profes-
sional staff to the goals of the organization and the widespread confusion on their
part about these policies, there appeared to be a relationship between staff concerns
about the direction of the workplace and how efﬁciently they did their work. Thus,
while this OIG inspection report should not comment on these policy choices, it
can recommend (see Recommendation 1) that these are matters which management
should do a more effective job of explaining to its staff and assessing their impact
on productivity. These concerns, some cited above, include:

            - Cuts to English language programming: CN staffers, committed to a
    successful tradition of a radio broadcasting in English, often do not agree with
    the decision to curtail the English language service at a time when English is the
    global lingua franca and when other nations are turning to English for their inter-
    national broadcasts.

             - Training: Interlocutors repeatedly reported that training opportunities
    in VOA have been limited in terms of scope and availability compared to other
    government agencies. The OIG team found that training does take place but
    is restricted by funding limitations and perhaps not sufﬁciently made part of a
    coordinated career development plan.



OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007    39 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



                - The VOA Style Guide: Many writers and editors complained that the
          VOA style guide was woefully out of date, predating television and Internet
          requirements. But the OIG team learned that the style book is present on the
          ofﬁce Intranet page and is updated regularly. The OIG team informally recom-
          mended to the acting managing editor that an earlier announcement to the staff
          about this electronic version be repeated and widely displayed.

                  - Hiring Practices: The OIG team heard repeated comments that there
          needs to be more transparency in hiring. The staff worry that management
          prefers to hire from the outside rather than to promote from within. Some
          long-term employees think that they are discriminated against because of age or
          longevity. They claim that seniority is not honored and that some of the newly
          hired or promoted employees are relatively unqualiﬁed. Also, sometimes em-
          ployees have been shifted laterally into GS-13 and GS-14 positions without open
          competition, which results in accusations of cronyism. These concerns are ad-
          dressed in the Human Resources (HR) section as are concerns about fairness in
          the awards program.

                - Promotion opportunities. The writers and editors perceive that there are
          limited opportunities for advancement. They say that career paths are not clear,
          nor are criteria for promotions. There is an impression that promotions are
          handed out grudgingly or not at all, and that the evaluation process is ﬂawed.

                - Telecommuting: Although IBB’s HR ofﬁce has issued at least one an-
          nouncement each year on the telecommuting program, the lack of communica-
          tion within CN has led to the impression that the program was only for a favored
          few.

                - E-2 travel software: Employees who travel described in great detail and
          had made formal reports about the cumbersomeness of the new vouchering
          system described in the management section.

               All is not negative. The CN staff expressed a number of satisfactions in
       working for CN. They include practicing one’s profession at its highest level, as well
       as enjoying a good salary and good job security under Civil Service protections. In
       contrast, private sector media salaries tend to be high for a few and low for everyone
       else. At CN even recently-hired writers get to choose their stories and shape them
       for transmission according to their skills.




40 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



    Most CN staff agree that the appointment of a new VOA Director is an initial
step in putting VOA back on course and in restoring the morale of CN. Senior
CN employees believe that the new VOA director has rebuilt the ﬁrewall and will
maintain it. Though they see him as more approachable than his predecessor, they
are still uncertain of his intentions toward CN and speak of the need to have more
direct contract with him.

Central News Relations with Language Services

    Many of the staff have worked for VOA for several decades. Their memories go
back to the Cold War, when VOA’s mission was clearer and its delivery less compli-
cated by technological innovations. In those days, the news was top down and one
size ﬁts all. The news division determined what the news was and prepared it for
translation and transmission by LS. Today, CN no longer has that degree of control
over what is “news” and what are the priorities. This sense of a loss of control is
deeply felt by many of the division’s most experienced staff.

     Many editors expressed concern that LS and the BBG grantee broadcast enti-
ties now decide what the news is for different audiences without effective central-
ized control. They claim that records of which items written by CN are used by LS,
“usage logs,” are not well kept and thus do not properly document the value of their
products.

     The usage log is a form of quality control. The CN products have been strictly
edited for conformity with VOA editorial standards. The log includes correspon-
dent reports, background pieces, scripts from the Focus unit, and English Programs
radio features. The assignments desk and correspondents may check it for ideas
about what a particular language service wants. When a CN writer and a stringer in
the ﬁeld both come up with a report on the same topic, there needs to be a way to
record multiple originations.

      Some language elements have adapted portions taken from the CN products
for use in their language service-generated materials without crediting the related
central material in the log. An analyst in P/R said that it is not clear how well the log
is being used. P/R recommended, in an April 2006 review, that the VOA Associate
Director for Language Programming enforce the requirement for LS staff to log us-
age of all CN products. Without a reliable logging system, internal quality control is
at risk.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007      41 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           Accurate log usage is key to proving that the quality-controlled CN product is
       being used. The OIG team supports the recommendation of P/R that a television
       news log also be established. A more user-friendly log with clear guidelines as to
       how to register origination of reports would be an important tool for CN, LS, and
       overseas writers.



          Recommendation 17: The Voice of America should create a more user-
          friendly log to record Central News material used by the Language Service and
          clear guidelines on how to use the log and how the Language Services should
          record the origin of reports originally created by Central News. (Action: VOA)


            Some editors also feel that annual LS program reviews are incomplete in showing
       the quantity or quality of the use of CN products by a given language service. Even
       if the differences in presentation and emphasis among the language services are
       insigniﬁcant, these news room veterans argue that broadcasts are not being accurate-
       ly monitored for content. They do not ask that CN be the monitor but suggest that
       monitoring should be an executive function carried out by an ofﬁce above the CN
       director.

             Many of the writers and editors on “the ﬂoor” of the news room report that
       they have no interaction with the language service staffers. Among them, one hears
       critical comments about the growth of certain favored language services, which they
       perceive to be at the expense of CN. But one ﬁnds a different attitude on the assign-
       ments desk, which does work closely with LS. Questions from LS are often technical
       and require advice from CN production specialists. Sometimes the language services
       seek clariﬁcation on the content of a report for translation purposes. Assignments
       editors and the language services offer each other information and suggestions.
       When coverage is coordinated, the language service and CN help each other out at
       interviews, sharing technology where possible.

            The Washington “beat” correspondents reported that they try to help out the
       LS reporters when they can, although this is not strictly a part of their duties. For
       example, if a VOA White House correspondent knows that a head of state will be
       at the White House, the correspondent, as professional courtesy, will provide the rel-
       evant language service a tape of the interview in the original language. Some proto-
       col for reporters, especially at the White House, is strictly structured. A CN manager
       said that some LS people do not know these protocols and are nervous, although the
       problem has lessened over the last few years as the LS journalists have become more
       experienced.


42 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



    Recommendation 18: Voice of America should require Language Service
    journalists covering a news event at the White House, the Pentagon, the De-
    partment of State, or in Congress to alert the Voice of America Central News
    correspondent assigned responsibility for that location. (Action: VOA)


     Washington correspondents that cover the Congress, the White House, the De-
partment, and the Pentagon, said they could be more helpful to their LS colleagues
if the language services understood how the correspondents operated. Many of the
news correspondents have been in their positions for a long time and have valuable
experience that could be used by the language services and could prevent duplica-
tion. The OIG team informally recommended that CN conduct an orientation for
LS journalists describing protocol, both formal and informal, for covering news at
the White House, the Pentagon, the Department of State, and in Congress.

      CN staff commented on their concern that the language services keep up the
quality and integrity of the VOA product. BBG’s implementation strategy for its
2008-2013 Strategic Plan states that “Credibility is key to success in broadcasting, and
it is our greatest asset.” P/R has found that the output, standards, and overall pro-
duction of the CN remain high in spite of managerial and administrative challenges.
To ensure quality in its products, CN has a traditional process of editorial review
and written criteria. The VOA Charter9 serves as a guideline: “VOA will serve as a
consistently reliable and authoritative source of news. VOA news will be accurate,
objective, and comprehensive.” The regularly updated VOA Style Book is on every
VOA computer (although as reported above, many on the staff deny knowing how
to ﬁnd it).

     CN produces a daily news report and advisories via the NEB wire that is avail-
able to all VOA elements. This report includes advisories of what CN plans to cover
on a daily basis as well as details of the news coverage itself. Every two hours, the
duty editor in charge updates a list of the top 10 stories of the Central News ﬁle.
This does not include the correspondents’ reports or background reports. In the
past, the language services were required to translate and use all of the stories. More
recently, as language services produce more of their own material, they are gener-
ally required to use the top one or two. According to the assignments desk chief,
some stories are “must use,” such as presidential speeches, congressional reaction to




Public Law 94-350.
9




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007     43 .


                       SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



       an important issue, or the war in Iraq. There was considerable debate by the corre-
       spondents and managers about the need for clear written guidance on what news LS
       should be required to use. The OIG team informally recommended that the Direc-
       tor of VOA prepare and disseminate clear guidance to the language services on what
       products they are required to use from the CN NEB wire.




44 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                   SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                    RESOURCE MANAGEMENT

    CN had a general operating budget of about $ 9 million in FY 2007 and current-
ly has 207 positions in Washington, its domestic bureaus, and its overseas bureaus.
Central News employees also utilize noncapitalized personal property valued at about
$2,000,000 in 2007, not including the property of the Central Video Unit, which was
reassessing its holdings. The following chart shows the number of personnel and
funding in CN locations. Attachment D shows a more detailed breakdown of fund-
ing by section and bureau.


   Budget and Staffing –            American Direct Funding –   Funding -  Total
   FY 2007                           Hires/Locally  General Op. Salaries   Funding
                                    Employed Staff Expenses
   VOA Central News                             148   4,626,399 15,681,000 20,307,399
   Washington
   VOA Domestic Bureaus                        8       105,608        883,302       988,910
   VOA Overseas                           20/31      4,497,935      4,177,313 8,675,248
   Bureaus/News Centers
   Total                                 176/31      9,229,942 20,741,615 29,971,557
   Note: The budget figures above and in Attachment D do not reflect all of the costs
   associated with CN operations and cannot therefore be used alone to analyze the cost of
   operations.




ADMINISTRATIVE SUPPORT
    For the last 10 years, CN employees and contractors have received the bulk of
their administrative support from a GM-14 administrative program manager, three
administrative ofﬁcers, and a secretary. Although a number of other ofﬁces (such
as the IBB Ofﬁce of Human Resources, the IBB Ofﬁce of Contracts, and the BBG
CFO’s ofﬁce) also provide CN staff support, CN staff generally take administrative
questions and requests ﬁrst to the CN administrative unit. The CN administrative
unit also provides services to ofﬁces outside of CN including the services to LS.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007        45 .


                       SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



           OIG found that the CN administrative unit has performed its routine functions
       well; needed services, supplies, and equipment were generally provided; payments
       made in a timely manner, funds tracked, and ﬁles in good order. Individuals in of-
       ﬁces outside of CN (including the BBG CFO’s ofﬁce, the IBB Front ofﬁce, the IBB
       Ofﬁce of Contracts, and the VOA Director’s ofﬁce) also gave the CN administrative
       section excellent marks for routine operations and indicated that they often went to
       the head of the section when they had questions. The employees are trained and
       experienced in their current responsibilities. The administrative unit received mixed
       reviews, however, from its customers.

       Central News Customer Support – Programmatic Control

            Many CN customers thought the administrative unit – the administrative pro-
       gram manager in particular – wielded too much control over CN operations and
       that the administrative unit, rather than the managing editor, controlled CN bureau
       and branch funding, and to some extent personnel. The OIG team found that a
       series of managing editors had placed a great deal of conﬁdence in the administra-
       tive program manager and her unit and allowed them wide latitude in inﬂuencing,
       and often making, resource-related decisions. The administrative program manager
       sits on CN promotion panels, and she usually initiates budget reallocations. Units
       outside of CN also rely on the administrative program manager. Until January 2007,
       the CFO’s ofﬁce processed CN resource reallocations and budget submissions that
       had been signed off on by the administrative program manager or the administrative
       ofﬁcers rather than the managing editor. Additionally, HR has posted vacancy an-
       nouncements with no evidence of the managing editor’s approval. The administra-
       tive program manager’s position description from 1993-2004 gave her a great deal of
       authority and responsibility for resource decisions,10 though her most recent position
       description is either less prescriptive or draws back some of those responsibilities.11



       10
         The administrative program manager’s position description from 1993-2004 described her as
       the “Chief Executive Ofﬁcer” for VOA News whose duties included “full authority to exercise
       direction over all personnel of the division, and is responsible for the recruitment and effective
       utilization of all News Division personnel…The incumbent has interchangeable status with the
       Division Chief and is regarded as competent to represent the VOA/X Division to high-ranking
       ofﬁcials both within and outside the agency…maintains close supervision of all correspondents
       and of domestic news bureau personnel… assists in the selection and assignment of VOA cor-
       respondents.”
       11
          The program manager’s current positions description states “As Deputy for Management, the
       incumbent has the responsibility for all directorate administrative matters. Included in these
       tasks are personnel management, ﬁnancial planning, training, program review, and management
       and requisition of purchase order talent…performs or directs the performance of continuous
       appraisal of all resources in accomplishing program objectives and goals.”


46 .                      OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                      SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



Although the program manager asserts that major decisions made by her unit are
cleared by the managing editor, the OIG team found that decisions are often dissem-
inated by the administrative program manager or administrative ofﬁcers fueling per-
ceptions that the unit controls resources. The administrative program manager and
the managing editor agreed that resource-related or controversial decisions should be
circulated by the managing editor rather than the administrative unit staff.



    Recommendation 19: The Voice of America, in coordination with the Broad-
    casting Board of Governor’s Chief Financial Ofﬁcer and the International
    Broadcasting Bureau’s Ofﬁce of Human Resources, should institute procedures
    to ensure that controversial or resource-related Central News decisions are not
    disseminated to staff or outside entities until written approval has been given
    by the Central News managing editor. (Action: VOA, in coordination with the
    BBG/CFO and IBB)




Budget Transparency Within Central News

    A number of CN staff reported that budget decisions were not transparent,
and they were unsure of the status of their budgets. As was noted in the discus-
sion of internal communication above, budget decisions are often made by Gover-
nors of the BBG, the BBG’s CFO, or the VOA Director’s immediate staff without
CN’s input and without the results being shared with CN. The CFO did inform the
OIG team that her ofﬁce has offered training to VOA staff on the budget process
– though speciﬁc budgetary decisions are not covered. In addition, the OIG team
found that, although each of the ﬁve CN units do have a budget, administrative staff
do not hold regular meetings with CN section heads to go over spending rates and
the level of funds available. Formal meetings would improve budget transparency
and ensure that administrative staff is kept aware of and can anticipate its customer’s
needs.

    Recommendation 20: The Voice of America should establish a process for
    regular communication between Central Programming’s administrative ofﬁcers
    and the heads of the Central News Division’s ﬁve Washington-based units, and
    between the administrative ofﬁcers and the domestic and overseas bureau corre-
    spondents to discuss the status of budgets and upcoming needs. This could take
    the form of monthly meetings, conference calls, video conferences or any of
    many available options. (Action: VOA)


OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007    47 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       Allegations of Favoritism in Timeliness and Quality of
       Support

            The OIG team received many reports of favoritism and a disparity in the timeli-
       ness and quality of support provided by the administrative unit. For example, the
       administrative program manager coordinated regularly with some correspondents
       and managers, but did not respond when others had questions. There were indica-
       tions that the administrative section did not process all travel vouchers in an equally
       timely fashion. The absence of performance standards in both VOA and IBB made
       it difﬁcult for the OIG team to evaluate the quality of support. The CN administra-
       tive unit, for example, does not have a performance standard for the length of time
       to complete its portion of the travel voucher process that starts after the traveler
       signs and submits the voucher. Additionally, many employees do not understand
       what functions the CN administrative unit is responsible for as compared to the
       other IBB administrative units. Therefore, CN administration is often blamed for
       the failures of others.

             Although IBB conducted customer surveys to gauge customer satisfaction with
       administrative services in 2003 and 2004, more current information would be help-
       ful and could be used to establish administrative efﬁciency measures. These tools
       are being employed in other agencies to measure unit performance and to compare
       that performance to that of other agencies or contractors who also provide services.
       Customer surveys are administered every year at embassies to gauge agency satisfac-
       tion with Department-provided services and the results are used to evaluate the per-
       formance of the embassy’s management ofﬁcer. The lack of an updated MOA and
       standard operating procedures, discussed in the management controls section, added
       to the impression of partiality on the part of CN administrative management.



          Recommendation 21: The Voice of America Ofﬁce of Central Programming,
          Central News Division, should describe the services and processes that it is re-
          sponsible for, establish performance standards related to each service or process,
          distribute the standards to Central News customers, post the service description
          and standards on its public bulletin board, and include standards of performance
          in work requirements descriptions of administrative positions. (Action: VOA)




48 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



Administrative Section Brain Drain

     During the inspection, the VOA Director reassigned the CN GM-14 adminis-
trative program manager to the LS West and South Asia Division where the rapidly
expanded Persian language service was experiencing management problems. The
administrative program manager was notiﬁed of the decision on a Friday and reas-
signed – effective immediately – on the following Monday. Neither the administra-
tive program manager, nor the acting CN managing editor knew of the planned reas-
signment before that day. The VOA Director told the OIG team that he transferred
the administrative program manager because of the growing importance and funding
of the Persian service and because administrative staff in that bureau needed assis-
tance. Although, from VOA’s perspective, the move was necessary, CN has been left
without its most competent and experienced administrative manager: one who su-
pervised all CN administrative unit staff including staff in overseas ﬁnance centers;
signed, as the contracting ofﬁcer, 90 percent of CN’s procurements; served as the
primary interface with the CN managing editor; and held numerous other responsi-
bilities. Although the remaining staff are working to keep the division aﬂoat, they
are not trained to handle all aspects of work performed by this GM-14. Combined
with the fact described earlier in this report that CN managing editors have tradition-
ally ceded virtually all administrative decisions to this employee, this? will leave the
CN unit – especially overseas operations – at a serious disadvantage.



   Recommendation 22: The Voice of America should develop a transition plan
   for the reassignment of the Central News administrative program manager’s
   Central News responsibilities. (Action: VOA)




COSTLY DECISIONS NOT FULLY VETTED
    Decisions that could commit VOA to substantial expenses often seem to be
made without fully vetting the costs or long-term implications. Changes to CN’s
Hong Kong and London operations, purchases related to the shift from radio to
television, and CN’s recent plan to move ﬁnancial operations from Paris to London
are all examples.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007     49 .


                       SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       London and Hong Kong

           As discussed above, when VOA moved two of its editors from London to Wash-
       ington, it left VOA with excess leased space in London. IBB had signed a restrictive
       15-year lease with no diplomatic release clause. The OIG team was told that the
       Persian service is partially funding an expansion of TV infrastructure in London
       and also that CN plans to move its ﬁnance center from Paris to London, thus VOA
       would not necessarily need to turn excess space back to the landlord, break the lease,
       or try to ﬁnd a replacement tenant. At the same time, however, the OIG team was
       told that BBG’s FY 2008 budget submission includes program decreases of $606,358
       (including $200,000 for ofﬁce lease costs, $65,058 for utilities and telephones, and
       $341,300 for elimination of four Foreign Service nationals) for moving its London
       correspondent to shared Radio Free Europe/Radio Liberty facilities in Prague. Dur-
       ing the draft review process, the CFO’s ofﬁce informed the OIG team that neither
       of these proposals had been approved by the board.

           Similarly, Hong Kong operational decisions do not appear to have been fully
       vetted, communicated, or properly executed. VOA’s expansion of its Hong Kong
       operations and use of contract staff was a source of considerable controversy in
       VOA. Further, the cost beneﬁt analysis was ﬂawed. In fall of 2005, VOA and
       IBB/Contracts conducted an A-76 Streamlined Competition12 to compare the cost
       of ﬁling the CN wire using ﬁve full-time employees at VOA headquarters during
       overnight hours, with the estimated contract price for performing the activity with a
       private sector source in Hong Kong. Most CN staff were unaware of this competi-
       tion. The result showed that using contractors to provide news writing services was
       cheaper and could save VOA at least $300,000 per year.

           However, as indicated above, the analysis was ﬂawed as VOA was not able to
       hire contractors at the rates shown in the comparison. VOA was, however, able to
       hire a few staff and started performing the function. In its January 2006 expendi-
       ture plan,13 submitted to the House and Senate committees on Appropriations, BBG
       stated that it planned to draw down the news-writing function in Washington and
       add ﬁve contractor positions to the Hong Kong bureau to enhance its product and




       12
          A-76 Streamlined Competitions are discussed in Ofﬁce of Management and Budget (OMB) 

       Circular A-76.    

       13
          Under the FY 2006 Science, State, Justice, Commerce and Related Agencies Appropriations 

       Act



50 .                     OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                     SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




save $1.1 million over ﬁve years. In April 2006, the House Committee on Appropri-
ations responded that the Committee “does not support this request at this time and
will consider this proposal in our review of the President’s Fiscal Year 2007 request.”
BBG’s 2007 request was never approved or disapproved. Nevertheless, CN had
already started to implement the plan and hire contractors in Hong Kong.

    In February 2007, CN managers were provided a document entitled “Bureau
Sharing Options” that described a number of proposed FY 2008 cutbacks. (The cut-
backs in this document totaled $2.5 million.) The proposed cutbacks included cost
savings of $1.18 million for colocating VOA’s Hong Kong operations with RFA us-
ing excess space created by closing VOA’s editing operations and retaining only two
American reporters from the Chinese language service and cutting RFA’s Cantonese
operations. VOA administrative staff and managers reported to the OIG team that
they were not involved in developing the cost savings ﬁgure and responded, after the
fact, that that ﬁgure did not take into account the anticipated severance costs (to be
funded from the locally employed staff liability account) or costs to dismantle two
radio studios, one TV studio, two intake centers, the IT server room and the tech-
nicians’ maintenance center, or to restore the property to its original condition as
required in the lease. Further, according to CN staff, the cost saving ﬁgure did not
address the infrastructure and staff needed in Washington to pick up the Hong Kong
functions. According to the CFO, BBG’s FY 2008 budget included cost savings of
$885,302 for colocating VOA’s Hong Kong bureau with RFA’s Hong Kong bureau.

    The OIG team was not able to get to the bottom of all of the facts surround-
ing the Hong Kong operation and the contradictory decisions in recent years, ﬁrst
to expand, then to contract, the editing function. But the inspection did reveal the
disconnect between the CFO’s ofﬁce, the VOA Director’s ofﬁce, and CN staff that
has created unnecessary work, cost BBG scarce funds, and had a negative impact on
morale in both CN Washington and Hong Kong.

Paris Finance Center

     VOA maintains two ﬁnance centers overseas, one in Bangkok and the other in
Paris. The ﬁnance centers were originally placed in Bangkok and Paris because State
Department payment centers, used to process VOA payments, were located in those
cities. Each VOA ﬁnance center has three locally employed staff employees who es-
tablish obligations and certify payments for overseas bureau payments in their region.
During the inspection, the OIG team was informed that CN was planning to relo-
cate its Paris ﬁnance center to London. The impetus for the move was apparently an
increase in the Paris ﬁnance center’s rent. The ﬁnance center occupies Department
of State space and VOA’s portion of the rental costs recently increased. The CFO’s


OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007    51 .


                       SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       ofﬁce, not CN, centrally funds all BBG International Cooperative Administrative
       Support Services (ICASS) costs which include the Paris Finance Center’s rent.

            Questions as to why VOA continued to support its Paris ﬁnance center ﬁrst
       arose years ago when the State Department closed its Paris ﬁnance center and moved
       operations to Charleston, South Carolina and when the Department opened its
       Frankfurt regional service center. BBG successfully argued at that time for keeping
       the CN ﬁnance center in Paris.14 Some of BBG’s original reasons are no longer valid.
       For example, the depth of knowledge and experience of the staff was one of BBG’s
       reasons for keeping the center in Paris. The supervisory locally employed staff and
       one of the other two staff are currently eligible to retire. Additionally, proximity to
       VOA bureaus was important in order to facilitate VOA bureau audits, but the Paris
       ﬁnance center has not conducted a bureau audit since 2005 due to lack of funding.

          CN provided the OIG team a number of justiﬁcations for moving the center
       from Paris to London including the following:

            • 	 VOA’s London bureau has extra space so CN lease costs would not increase;

            • 	 An alternate certifying ofﬁcer already resides in London;

            • 	 At least one of the ﬁnance center employees may want to relocate to London
                and would provide beneﬁcial continuity;

            • 	 The center should be located in the same time zone as the overseas bureaus
                serviced;

            • 	 Neither CN nor the CFO’s ofﬁce had access to the overseas ﬁnancial
                systems or staff or expertise to take over the function;

            • 	 Commercial mail delivery services in the United States will not deliver checks
                to vendors with vague or incomplete foreign addresses (particularly in Africa)
                while carriers in Paris (and possibly London) would;




       14
         According to an unsigned soft-copy letter to OMB, BBG’s reasons for keeping the center in
       Paris included: the depth of knowledge and experience of the staff; the geographic and time-
       zone proximity to VOA bureaus to facilitate landlord and stringer payments and audits of VOA
       bureau operations; and French language proﬁciency for dealing with vendors in VOA bureaus in
       French-speaking countries.


52 .                     OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                     SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



     • 	 Sending foreign currency checks from Charleston through Washington rather
         than through Paris (or possibly London) would increase the length of time to
         make overseas payments; and

     • 	 Sending invoices from overseas bureaus to Washington, DC will take longer
         than sending the documents from the bureaus to Paris or London.

      CN, however, did not fully vet the issues listed above. For example: CN has
not reviewed the number and nature of communications between the Paris ﬁnance
center and VOA bureaus to determine how important physical proximity to VOA
bureaus really is and whether BBG accountants and certiﬁcation ofﬁcers in Washing-
ton or Charleston could adjust work schedules to provide adequate coverage – the
Department, for example, mans its ﬁnance center 24 hours a day.15 CN has not con-
tacted Charleston to determine if foreign currency check mailings to Washington can
be expedited. Additionally, CN did not conduct a cost-beneﬁt analysis to determine
if the function could be moved to or absorbed by existing BBG staff in Washington
or Charleston at a lower cost than moving the function to London. Over the last
few years, the Paris ﬁnance center’s workload has diminished and it is questionable
whether all of the staff are fully employed. CN’s three-person ﬁnance center costs
almost $500,000, the majority of which is for ofﬁce space, embassy guard services,
salaries, and beneﬁts.

     VOA had not adequately considered whether it could outsource the overseas
accounting and certiﬁcation functions to other agencies rather than performing the
functions with BBG staff. Although the Paris and Bangkok certiﬁcation ofﬁcers are
well versed in BBG’s overseas accounting system (the same system used by the De-
partment for overseas operations) and those ofﬁcers regularly communicate with De-
partment accounting certiﬁcation ofﬁcers who receive periodic training and guidance
on overseas guidelines and systems, VOA administrative staff told inspectors that
only a few staff in BBG in the CFO’s ofﬁce are familiar with the overseas systems,
regulations and requirements and most of them are nearing retirement. During the
inspection one such key ofﬁcer in the CFO’s ofﬁce left. CFO staff did not have



15
  CN staff may be able to provide overseas accounting services and BBG/CFO staff overseas
certiﬁcation services. In response to seeing a draft of this report, the CFO staff stated that they
do not currently have access to the overseas accounting system. At an annual ﬁnancial manage-
ment conference, the Director of Financial Operations discussed the possibility of providing
BBG with direct access to LANSPFMS and RFMS with the Department. The Department
stated that it was not ready to provide this access. If the Department agreed to provide direct ac-
cess, the BBG Payment Ofﬁce could enter payments directly into the overseas system, thus elimi-
nating the need for the Paris Ofﬁce or moving this function to the London Bureau.


OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007                53 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       access to the overseas accounting system. The CN program manager was viewed by
       many VOA overseas staff as the overseas operations expert; though she admitted she
       did not know all of the requirements and that dealing with overseas operations was a
       constant learning challenge.

           The OIG team was informed that because VOA correspondents do not have
       diplomatic status, they cannot be serviced by embassies. BBG and the Department
       should reexamine the above policy as it relates to mundane administrative functions
       to allow, for example, obtaining accounting or certiﬁcation functions through ICASS
       overseas. State cable 96188 (April 14, 2003), addresses access that all BBG overseas
       staff have to ICASS. Alternatively, VOA could obtain certiﬁcation services from the
       Department’s Financial Service Center in Charleston.

          During the draft report review process, the CFO ofﬁce stated that CN’s plan to
       move the ﬁnance center from Paris to London had not been approved by the Board.



          Recommendation 23: The Voice of America, in coordination with the Broad-
          casting Board of Governors, should conduct a cost beneﬁt analysis to deter-
          mine the best location for its overseas accounting and certiﬁcation functions,
          and design and implement a plan to relocate those functions based on the re-
          sults of the analysis. (Action: VOA, in coordination with BBG)


           The cost beneﬁt analysis should address whether VOA and/or BBG staff can
       provide accounting and certiﬁcation functions from Washington DC or a lower cost
       location overseas and whether the cost of outsourcing accounting and/or certiﬁca-
       tion services would be more economical that providing such services via Voice of
       America or Chief Financial Ofﬁcer direct-hire staff.



          Recommendation 24: The Voice of America, in coordination with the
          Broadcasting Board of Governors’ Chief Financial Ofﬁcer, should relocate ac-
          counting and certiﬁcation functions to the domestic or overseas location deter-
          mined to be the most cost effective by the cost beneﬁt analysis. (Action: VOA,
          in coordination with the BBG CFO)




54 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



Other Administrative Sources

    VOA could also beneﬁt from obtaining administrative support or, at least, advice
from other foreign affairs agencies or contractors in other administrative areas.
Obtaining assistance from Embassy London’s general services ofﬁcer or from the
Department’s Bureau of Overseas Buildings Operations (which deals with thousands
of overseas leases every year), might have prevented BBG’s signing its overly-restric-
tive 15-year London lease. The OIG team was informed that excess or inoperable
equipment is often destroyed by overseas bureau correspondents because the cost
of conducting a sale outweighs the potential proceeds. In FY 2006, for example, the
Beijing bureau destroyed one copier, three humidiﬁers, one computer, two printers,
two air cleaners, a VCR, a fax machine, and other radio and TV equipment. Other
overseas bureaus ship broken or obsolete equipment back to Washington at unneces-
sary costs.

      According to documentation, overseas VOA correspondents do not request
embassy or consulate support for property sales, because the correspondents are
administratively separated from Department facilities overseas; however, VOA could
explore donating the property to the U.S. Embassy because their sales are likely more
cost-effective due to volume. This has been raised in a number of reports of in-
spections of BBG facilities overseas. Assistance from other foreign affairs agencies
operating in Hong Kong may have resulted in a more realistic cost-beneﬁt analysis
with regard to contractor salaries.

     Management controls could also improve by looking to other agencies or con-
tractors for administrative support or advice. Overseas correspondents reported
that they did not receive adequate procurement or ﬁnancial management training
before traveling overseas (as discussed further in the procurement section). Many
also noted that IBB/Contracts, HR, and CFO had not been supportive and often did
not understand the realities of operating overseas so they relied on the CN’s admin-
istrative program manager for support. The OIG team received a few allegations of
missing equipment pertaining to overseas operations. While the OIG team was not
able to address all of the overseas issues raised during the inspection, the OIG team
informally recommended that VOA conduct cost-beneﬁt analyses to determine if
real property, HR, and contracting support could be obtained outside of BBG for
better results. As stated in Recommendation 5, VOA needs a sustainable and trans-
parent plan for the support of each of the VOA’s overseas operations, to include the
implementation of effective internal controls mechanisms.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   55 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       VOICE OF AMERICA ADMINISTRATIVE SUPPORT STRUCTURE,
       DISJOINTED AND SHORTSIGHTED
           The CN administrative unit – primarily the former CN program manager – pro-
       vided administrative support services to a number of ofﬁces outside of CN. The
       CN program manager served as the contracting ofﬁcer for two LS divisions, signing
       90 percent of their procurements. She also managed, as the primary authorized rep-
       resentative of the contracting ofﬁcer (ARCO), BBG’s four major newswire contracts
       (used by CN, LS, the Ofﬁce of Cuba Broadcasting, and Radio Free Europe). The
       program manager also supervised staff at CN’s two overseas ﬁnance centers that
       provide accounting support to LS operations overseas. Although these non-CN-
       related responsibilities often entailed a signiﬁcant amount of effort, none of the
       responsibilities were mentioned in either the program manager’s or any of the CN
       administrative staffs’ position descriptions or work requirements statements. Ad-
       ditionally, none of the non-CN-entities have input to the ratings of any of the CN
       administrative staff. The arrangements are disjointed and have resulted in substan-
       dard administrative support to non-CN entities and have placed an extra workload
       on the CN administrative staff.

            Responsibilities gravitated toward the CN administrative staff because the CN
       staff enjoy a reputation in VOA and IBB for being competent, and because neither
       LS nor the IBB have been willing or able to take on the responsibilities or ﬁll needed
       positions. Many of VOA’s key administrative staff members are retiring or near
       retirement. Because the administrative support structure in VOA is relatively ﬂat
       – with each language service maintaining its own administrative ofﬁcers – the retire-
       ment of one ofﬁcer or elimination of one position can seriously cripple a service’s
       operations. Newly hired administrative ofﬁcers may report directly to LS division
       chiefs, who rarely come from a management background, or other inexperienced
       administrative ofﬁcers. This situation and the administrative structure have already
       created problems.




56 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



     A senior VOA manager described the situation as an “administrative crisis.” IBB
Ofﬁce of Contract staff and CFO staff are concerned about unauthorized commit-
ments and the potential for Antideﬁciency Act violations. Before her reassignment,
the CN program manager had to ratify 26 payments, two totaling about $40,000
each, occurring in different language service ofﬁces since December 2005, gener-
ally because stringers were conducting work without valid contracts or obligations
in place.16 In the context of CN inspection interviews, LS section heads expressed
concern about their own administrative operations. The OIG team also received
phone calls from LS stringers who were concerned that their payments were late.
One overseas CN correspondent in a dangerous location was particularly concerned.
Stringers, whom he and various language services relied on for reporting and for
security awareness, had not been paid in four months for services provided to a lan-
guage service. If they lost patience, he and his LS colleagues could be quite vulner-
able.

      Although the OIG team is not inspecting all of VOA, the impact that the
disjointed administrative structure has had on CN operations and the number and
severity of comments the OIG team received about administrative operations – pri-
marily among the language services – is cause for concern. Budgetary pressures and
changing priorities are likely to continue and may result in further reduced training
funds for administrative staff. The absence of central authority or guidance, the
uneven skill levels among the administrative staffs of different ofﬁces, the lack of fa-
miliarity with overseas needs, and the opaque way in which the BBG budget process
operates all contribute to this breakdown. VOA, however, does not appear to have a
plan to ensure that administrative ofﬁcers are adequately trained and supervised and
that VOA bureaus and divisions are staffed with an appropriate number of admin-
istrative ofﬁcers. The OIG team noted models in which a centralized administrative
authority could better lead and distribute responsibilities.




16
  The ratiﬁcation process serves to reprimand employees who either commit U.S.
government resources without having authority to do so, or who commit resources
without ﬁrst ensuring that valid obligations and/or funding are in place (putting the
agency at risk of being antideﬁcient).

OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007     57 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





          Recommendation 25: The Voice of America should develop and implement
          a plan to: ensure adherence to U.S. government regulations; ensure that adminis-
          trative ofﬁcers receive adequate training and supervision from trained and
          seasoned administrative staff; allow bureau administrative staff to back each
          other up when workload changes or staff are in training; and, facilitate the
          redistribution of administrative staff when programmatic priorities shift
          between bureaus. (Action: VOA)



                Towards the end of the inspection period, the OIG team was informed that
       VOA had recently advertised a GS-15 Resource Manager position for its front ofﬁce
       that may have oversight responsibilities with regard to the VOA administrative of-
       ﬁcers. While this is a step in the right direction, the OIG team believes centralizing
       the support in one ofﬁce (such as the VOA front ofﬁce) rather than having partial
       oversight from the front ofﬁce, would be a better long term solution in that it al-
       lows administrative staff to back each other up and allows frequent contact between
       seasoned and new VOA administrative staff. The OIG team was also told that VOA
       has been working with HR to establish a recruitment and retention strategy and a
       training plan for staff engaged in administrative support activities. However, the
       plan has been in the works for over a year, and it is questionable whether sufﬁcient
       funding has been identiﬁed. The OIG team informally recommended that VOA,
       in coordination with HR, identify and set aside sufﬁcient funds for recruitment and
       training of its administrative staff. The OIG team was encouraged by the draft plan-
       ning documents (that include standardized position descriptions and performance
       standards) and suggested training courses. An informal recommendation was made
       that VOA consider separating administrative duties by function (such as ﬁnancial
       management, human resource, procurement), similar to those used at other agencies,
       to facilitate recruitment and development of technical expertise.

             After the inspection had ended, the OIG team was informed that beginning in
       February 2006, the Ofﬁce of Contracts had held numerous meetings with technical
       personnel to improve controls over unauthorized commitments. However, unau-
       thorized commitments did occur after this date, which may indicate that in addition
       to technical personnel, other VOA staff may need training.




58 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



EQUAL EMPLOYMENT OPPORTUNITY
     The IBB Ofﬁce of Civil Rights (OCR) is responsible for ensuring that EEO pol-
icies are fostered at IBB. OCR serves as a means to redress complaints. According
to OCR, in the last four years only two of the 148 Washington-based CN employees
have initiated formal complaints, and both of the complaints were resolved. At the
time of the inspection, there were no outstanding formal complaints. The Director
of OCR emphasized, however, that many IBB employees come to her to describe
potential problems and to learn what their options are. Clearly, the vast majority do
not initiate a formal complaint. One reason for this may be a perception that the
employee would not get a satisfactory resolution from OCR. The OIG team learned
in the course of employee interviews and questionnaires that many VOA employees
fear retribution by supervisors should they bring a complaint. OCR is aware of this
and is concerned.

     All managers and supervisors are required to attend EEO training, which is
funded by, and conducted by OCR. Despite this availability of EEO training, the
OIG team heard a wide range of EEO-related complaints. There is a need for
broader-based training for all employees on EEO principles, promotion of diver-
sity, and what to do if one is subjected to discrimination, with a clear emphasis on
ensuring that all employees actually attend the training. The OIG team informally
recommended OCR develop a program to remind all employees of the application
of EEO principles. Participation in the program should be directed from the VOA
Front Ofﬁce through all levels of management. The program could include town
hall meetings to emphasize management’s commitment to these principles followed
by a series of training sessions. The training sessions should be practical, including
case studies, clearly addressing employees’ rights and responsibilities, describing how
OCR may be able to assist them (stressing the need for documentation); and, provid-
ing an avenue to answer questions. Other agencies have found that there is often a
resistance to such programs by experienced managers that can only be overcome by
tying these concepts of leadership to the managers’ professional evaluations.



   Recommendation 26: Voice of America management should make adherence
   to Equal Employment Opportunity concerns and leadership training a part of
   all supervisors’ performance plans and their annual assessment ratings. (Action:
   VOA)




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007    59 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       TRAVEL
           The OIG team reviewed business class travel by CN employees with the IBB Of-
       ﬁce of Financial Operations and found that all observed instances of business class
       travel followed IBB travel policy correctly.

            Several CN employees who had lost their U.S. government credit cards (due to
       late payment or other processing difﬁculties) were not able to obtain travel advances,
       and therefore had to fund ofﬁcial travel personally. IBB policy does not currently
       allow travel advances when the traveler has lost use of his or her U.S. government
       credit card. Exceptions, however, can be requested in writing by the individual’s
       supervisor and will be approved on a case-by-case basis. The OIG team informally
       recommended that IBB consider making the travel advance policy less draconian and
       allowing travel advances for infrequent travelers or for travel of lengthy duration as
       long as the advances are properly handled and paid back in a timely manner. OIG
       also informally recommended that IBB publicize the travel advance policy and the
       process for requesting an exception.

            According to the BBG Ofﬁce of Financial Operations, all IBB employees were
       offered basic training in the use of the new E-2 travel management system, but not
       all took advantage of it. A travel center has been established to answer questions
       and assist travelers. Based on the number of complaints from employees about the
       E-2 system, however, the OIG team informally recommended that the ofﬁce of
       Financial Operations more broadly publicize the CFO Internet site containing Fre-
       quently Asked Questions and a PowerPoint training presentation and directly urge
       travelers to take advantage of the availability of one-on-one E-2 travel system train-
       ing. (OIG’s ability to review the travel area was somewhat impeded by the fact that
       the chief of the Financial Operations Division and the system administrator for the
       E-2 travel management system departed their positions during the ﬁeldwork period
       of this inspection.)



       PARKING AND SECURITY
            The parking policy for IBB appears to be dysfunctional, with the conﬂict be-
       tween the times when the evening shift begins and ends and when the appropriate
       parking areas are available for use. This results in hasty handovers to the next shift
       at the least and, too frequently, work time lost to parking problems. The OIG team
       informally recommended that VOA request IBB to adjust the parking lot hours of
       operation to match work shifts of employees.


60 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



     Security in the post-September 11 world is of preeminent concern, particularly
for employees working in federal government buildings. There are many reasons
why Voice of America, with its 24/7 operation could attract terrorist or criminal
interest. VOA staffers, particularly on the night shift have described guards nodding
off or asleep at their posts. The OIG team informally recommended that IBB ad-
dress these concerns with the Federal Protective Service.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   61 .


                       SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





62 .    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


       SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                    MANAGEMENT CONTROLS

     The OIG team found that management controls within CN for routine adminis-
trative operations were good overall; however, controls over programmatic decisions
and overseas operations need to improve. The absence of up-to-date guidelines,
standard operating procedures, and position descriptions has been a detriment to
effective controls. Additionally, the transfer of the CN program manager (discussed
above) and pending retirement of key IBB personnel will erode existing CN man-
agement controls. Finally, CN’s internal management controls assessment was not
complete.

    The OIG team found the administrative section at a disadvantage because both
CN and IBB lack up-to-date guidance in certain areas. IBB’s MOA was not up to
date and few standard operating procedures exist. Sections of the MOA refer at
length to the support embassy ﬁnancial and general service ofﬁcers provide, though
overseas bureau correspondents have not used embassy ofﬁcers for accounting, cer-
tiﬁcation, or procurement functions for years. The MOA also refers to Department
ﬁnancial reports that were replaced years ago. The absence of codiﬁed ﬁnancial
management procedures was identiﬁed as a “reportable condition” by OIG’s inde-
pendent auditor in its audit of BBG’s FY 2005 and FY 2006 ﬁnancial statements.17
Although BBG’s FY 2005 and 2006 Performance and Accountability reports seemed
to demonstrate progress,18 during the inspection the OIG team was informed that
seven of 11 CFO sections are completed but not yet posted, two are still in the clear-
ance process, and the other two sections – on travel and payments – are still being
rewritten. The head of the CFO’s Payments Section (who took another job during




17
  Under standards issued by the American Institute of Certiﬁed Public Accountants, reportable
conditions are matters related to signiﬁcant deﬁciencies in the design or operation of internal
control that could adversely affect BBG’s ability to record, process, summarize and report ﬁnan-
cial data consistent with the assertions of management in its ﬁnancial statements.
18
   In its FY 2005 Report, BBG noted that “in FY 2004, the agency began updating its MOA. The
ﬁrst policies and procedures that were updated were for the CFO’s ofﬁce. A draft of the CFO
section has been completed and is currently under review and clearance. The ﬁnal section is
scheduled to be ﬁnalized by December 31, 2005.” In its FY 2006 Report, BBG noted that “The
CFO components of the MOA have been drafted, are being formatted to ﬁt the current MOA
model, and are under review by General Counsel.”


OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007             63 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       the inspection) said that her section did not have adequate resources this year to
       fulﬁll their routine functions, establish a travel ofﬁce, and research and incorporate
       all Government Accountability Ofﬁce regulation changes occurring since 1987 into
       the IBB MOA.



          Recommendation 27: The Broadcasting Board of Governors should identify
          and request the resources needed to complete the ﬁnance-related sections of
          the Manual of Operations and Administration and develop a realistic schedule
          for completing the sections. (Action: BBG CFO)




          Recommendation 28: The Broadcasting Board of Governors should com-
          plete and post the ﬁnance-related sections of the Manual of Operations and
          Administration. (Action: BBG)


           In accordance with the Federal Managers’ Financial Integrity Act of 1982 and
       the Ofﬁce of Management and Budget (OMB) Circular A-123 “Management Re-
       sponsibility for Internal Controls,” revised 2006, BBG must conduct a management
       assessment of the effectiveness of its internal controls every year. To comply with
       the requirement, IBB distributes a self-assessment checklist to each major BBG/IBB
       manager, including one to the VOA Director’s ofﬁce, for completion. The VOA
       Director’s ofﬁce, in turn, distributes the checklist to its constituent divisions, to
       include CN. In its FY 2006 Statement of Assurance, CN (Central Programming at
       the time) reported that the results of the review indicated that there was a reasonable
       assurance that internal and management controls were working effectively and the
       program and administrative functions were performed in an economical and efﬁcient
       manner.

            However, neither CN, nor the VOA Director’s staff, could locate the underlying
       self-assessment checklists, as required in IBB guidance, calling into question how and
       whether the checklists were actually completed. Checklists include questions such as:
       “Does the section have clearly stated and current (not older than ﬁve years) policies,
       procedures, organizational structures, and systematically organized delegations that
       are appropriately distributed by management and accompanied by training?”; “Do all
       employees have a performance appraisal plan with performance measures?”; “Did
       all employees receive a performance rating?”; “Does the ofﬁce periodically check ac-
       countable items by physical inventory?”; “Does the ofﬁce have controls that prevent


64 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



incurring obligations in excess of funds available within a budget category?” In
addition, the 2006 checklist was signed by the (former) CN Program Manager rather
than the head of CN (Central Programming at the time). Management control
reviews are meant to be more than administrative exercises. They should address
both administrative and programmatic controls and therefore should be signed by
the head of the operating unit. The OIG team made an informal recommendation
that both CN and VOA maintain documentation supporting its self-assessments as
required. In July 2007, the acting managing editor was issued and did sign an internal
controls assessment. This has not been a regular procedure for VOA.



   Recommendation 29: The Voice of America should require the head of the
   Central News Division to sign the Central News Division’s annual internal con-
   trols assessment. (Action: VOA)


    VOA’s overall statements of assurance from FY 2005 and FY 2006 similarly
reported no weaknesses. The OIG team was able to review VOA’s supporting as-
sessment checklists, though the checklists did not appear complete. For example,
VOA only completed the “Generic Questions” section of the checklist and not
the “Speciﬁc Functional” sections on Human Resources, Financial Management,
Procurement/Contract Management, Travel, Property Management, and Informa-
tion Technology. Although other IBB ofﬁces have broader responsibilities in these
speciﬁc functional areas, VOA managers and administrative staff are responsible for
a number of important controls mentioned in those sections. For example, account-
able property ofﬁcers within CN are responsible for conducting physical inventories
every year and reporting the results to IBB.

     VOA assignments staff must ensure that administrative ofﬁcers have established
valid obligations with funding before using stringers or contractors’ services or prod-
ucts. Additionally, in the completed assessment section, VOA explanations referred
to the “VOA front ofﬁce” rather than VOA as a whole. For example, to the ques-
tion, “Does the area have trained and competent personnel to properly manage and
perform the activity?” VOA stated that “All VOA front ofﬁce employees are trained
and competent to perform their duties.” The self assessment checklists are opportu-
nities for VOA to identify problems areas or request support or resources. The OIG
team made informal recommendations that VOA complete all relevant questions in
the checklist and ensure that its submission reﬂects an assessment of all VOA opera-
tions, not only those of the VOA front ofﬁce. Additionally, because written assess-
ment instructions do not appear to have resulted in complete VOA assessments for
the last two years, more oversight and guidance is needed.

OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007    65 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




          Recommendation 30: The International Broadcasting Bureau should write
          and implement a policy requiring its Ofﬁce of Administration to meet with
          all International Broadcasting Bureau division heads, including the Voice of
          America Director, before each years’ assessments are due to explain each unit’s
          responsibilities, provide examples of problems to report on, and to answer
          questions. (Action: IBB/Administration)


            The CN program manager supervises certiﬁcation ofﬁcers overseas and theoreti-
       cally could pressure those ofﬁcers into certifying payments for procurements that she
       herself had signed. The OIG team made an informal recommendation that VOA
       establish a control to insulate overseas certiﬁcation ofﬁcers from this potential pres-
       sure such as having overseas certiﬁcation ofﬁcers report to someone other than CN’s
       warranted contracting ofﬁcer.



       HUMAN RESOURCES MANAGEMENT
           At the time of the inspection, the OIG team was advised that 12 of 176 autho-
       rized positions were vacant and in varying stages of being reauthorized, posted, and
       ﬁlled. IBB HR provides the human resources, recruitment, and classiﬁcation sup-
       port for CN as well as the rest of IBB. CN administrative staff work closely with
       HR, providing personnel action requests, helping write position descriptions, work-
       ing with the Employee Relations Division when there are employee issues, tracking
       CN qualiﬁcation tests (used to evaluate candidates) from the scoring editors from the
       news desk back to HR, and following up on new-hire processing. CN administra-
       tion staff and HR emphasized to the OIG team that they received excellent support
       and cooperation from each other. The OIG team observed that both were working
       to provide good support to CN employees; however, the comments from personal
       questionnaires and interviews with individual clients did not always reﬂect this.

       Position Descriptions and Work Requirements
       Statements

           Many CN employees did not have accurate position descriptions and were not
       being evaluated against work requirements that actually related to the work they
       were tasked to perform. The position description is the basis for the work require-
       ments statement, so it should be the focus of attention. HR and VOA management
       recognized that VOA’s position descriptions needed updating and had established a
       task force to address the issue. Initially, one HR specialist and a VOA subject matter

66 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




expert worked to develop a menu of all duties performed. VOA supervisors then
updated position descriptions utilizing the menu items. Two HR Classiﬁcation Spe-
cialists were then contracted to review and classify the new duties of VOA’s LS and
CN divisions. Once this step was completed, the newly classiﬁed position descrip-
tions would be returned to the supervisors to assure accuracy and discussion with
employees.

      In order to plan for pending personnel actions, possibly including RIFs, IBB au-
thorized special funding to review the approximately 950 position descriptions of its
two divisions. The review started in March 2007, and is scheduled to be completed
by the end of calendar year 2007. However, the focus of the review is intended to
ensure that positions which would be impacted by a RIF are reviewed ﬁrst. Because
it is less likely that CN positions will be directly involved, other than through bump-
ing rights, the CN positions would be the last to be reviewed.19

    In order to ensure that these CN position descriptions do get reviewed and that
the reviews are completed by the end of CY 2007, IBB should provide funding for
an additional contract HR classiﬁcation specialist (or the continuation of the exist-
ing contractors), preferably one with hands on experience with VOA positions. An
experienced VOA classiﬁer is necessary because of the IBB’s unique single-agency
classiﬁcation standards and because IBB familiarity will ensure a more productive
and contributory effort.



     Recommendation 31: The International Broadcasting Bureau should provide
     funding for an additional contract classiﬁer in its Ofﬁce of Human Resources
     to ensure the proper and timely review of Central News Division position de-
     scriptions or funding to continue the two existing contractors to complete the
     Central News Division portion by the end of 2007. (Action: IBB).




 While no positions in CN are targeted to be abolished in the potential RIF, employees in CN
19

could be affected should displaced employees who are in a higher tenure group qualify to bump
CN employees. CN employees could also be affected if displaced employees with more seniority
are able to retreat into a CN position if the position is essentially identical to a position that the
displaced employee previously held.


OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007                   67 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       Hiring Process/Filling Positions

           A number of CN employees complained about the length of time it takes HR to
       recruit and ﬁll a vacancy and about the difﬁculty in getting status reports on pending
       actions. The OIG team discovered that HR has published, and maintains on its web-
       page, a comprehensive guide listing the “Steps in the Hiring Process” and explaining
       the amount of time required for each step. The OIG team informally recommended
       that HR more aggressively feature this helpful guide and ensure that all CN employ-
       ees are aware of it.

           For every position that becomes vacant, the manager (not HR) must seek BBG
       exception approval before any action can be taken to ﬁll it. As discussed in the con-
       text section, the BBG only meets once a month. Additionally, VOA or IBB manage-
       ment may choose to keep certain positions open, either in anticipation of potential
       reductions or to promote budget savings. This hiring hold is not readily obvious to
       the employees and managers involved.



          Recommendation 32: The International Broadcasting Bureau should direct
          the Ofﬁce of Human Resources to develop a system to provide a periodic sta-
          tus report to managers on the current status of hiring actions. (Action: IBB).


           The necessity to seek BBG approval to ﬁll vacant CN positions, the possibility of
       holds on positions due to management decisions, and widespread complaints from
       employees about lack of information on hiring actions have demonstrated a need for
       a creative mechanism to facilitate communication about the status of hiring actions.
       The OIG team informally recommended that IBB HR look into developing an elec-
       tronic status board on its web site, where the current status of hiring actions could
       be easily and quickly obtained.

           The OIG team received a number of complaints from CN employees that they
       did not understand why some positions could be ﬁlled without competition and
       others had to be competed. The OIG team informally suggested that HR publish
       broadly the policies concerning competition of positions to make it clear to employ-
       ees when competition is and is not required.




68 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



Awards and Employee Recognition

    The OIG team received several complaints from CN employees about the lack
of transparency of the awards program and questioned why the “favorites” received
multiple awards and others received none. In the past three and one-half years, 118
CN employees have received a total of 223 awards. In some cases, the same em-
ployees have received numerous awards. The awards appear to be widely distributed
among the CN sub-units. The OIG team informally recommended that CN man-
agement disseminate more broadly the criteria and eligibility for awards.

     More recently, budget constraints have sharply curtailed the awards program.
IBB pursues other forms of less costly but meaningful recognition (such as tickets to
functions and small commemorative gifts) as a further way of recognizing employee
contributions. For the FY 2008 budget, IBB has requested $243,684 for awards pro-
grams, which represents an increase of 53 percent over the FY 2007 level.

Training

     There is a persistent perception among CN staff, as demonstrated not only in the
interviews and questionnaires of this inspection, but also in employee satisfaction
surveys and other assessments, that VOA employees are not given training oppor-
tunities available to other agencies. The OIG team found that there are training op-
portunities available, and they are publicized. But attendance is not encouraged, nor
is the training part of a career development plan such as is seen in other agencies.

    Within IBB, the Ofﬁce of Civil Rights administers EEO and diversity training
using its own budget for this purpose. Most other professional and leadership train-
ing is administered by HR. The training ofﬁce currently consists of ﬁve employees,
with one vacancy and the realignment of another position expected. Because train-
ing has been cut due to budget constraints, professional and leadership training has
suffered, even though a newly-minted ﬁve-day supervisors’ development course,
“Foundations of Management for New Supervisors”, was developed two years ago.
The training ofﬁce was able to sponsor several sessions during the past two years.
HR conducts an abbreviated (four-hour) leadership orientation for all new supervi-
sors, facilitated by the HR division chiefs. Earlier OIG inspection recommendations
resulted in a priority being placed on mandatory training for employees involved
in contracting and acquisitions, as well as for security specialists to assure full com-
pliance with regulations and policies. Training for the core broadcast mission has
remained HR’s highest priority with a focus primarily on transitioning from radio to
television and the Internet.



OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007     69 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



             For the FY 2008 budget, BBG has included a request to increase its training
       budget to $644,000, a signiﬁcant increase over the current $350,000 level, but actu-
       ally just restoring it to historical levels. If this is approved, the training ofﬁce plans
       to expand leadership training, career development training, skill improvement train-
       ing, and training to improve performance and increase promotion potential. The
       OIG team informally recommended that HR work to develop a more complete and
       tailored training plan, and encourage employees to prepare individual development
       plans that can be facilitated by a new effective range of training courses.

           Training records are not held in one place, so it is difﬁcult to monitor who has
       had what training. IBB has plans to be integrated into the Defense Civilian Person-
       nel Data System, by the end of CY 2008. This will facilitate the tracking of training
       records and the ability to tailor training programs to the actual needs of the employ-
       ees. The OIG team informally recommended that IBB HR move forward on that
       plan.

       Assistance and Advice for Employees

           Opinions among CN staff interviewed by the OIG team as to whether gen-
       der was a factor in promotions are divided, though a number of female employees
       describe the workplace as sexist and dominated by an “old boys” network. Several
       writers believe that the reason they have never been promoted to editor is because
       they are foreign-born and do not speak English with an American accent.

           Both male and female CN Division staff members shared with the OIG team
       comments made within the past 12 months by VOA management ofﬁcials that
       would be considered highly inappropriate, but the employees have declined to ﬁle
       formal EEO complaints. With no action taken, the general sense remains that
       there may be persistent sexism in the division that limits the opportunities for some
       employees to advance or simply to feel comfortable in the workplace. Recommenda-
       tions on EEO issues are made in the Resource Management section above.

            The OIG team received numerous complaints from CN employees in the area
       of discrimination and unequal treatment in certain areas. HR indicated there are
       three main sources of assistance or advice for employees who have problems. One
       is the Ofﬁce of Civil Rights, which can help in cases of discrimination and possible
       violations of the EEO laws and regulations. The second is the HR Employee Rela-
       tions Division. They can help in dealing with violations of employment regulations
       and can work to counsel managers in their responsibilities. Employee relations can
       also refer employees to (or employees can contact directly) the advisory, referral and
       counseling service which provides professional counseling and consultation assis-


70 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




tance for all employees and their families. Finally, for those employees who are part
of the bargaining unit, they can seek assistance from their union representatives.

    The OIG team observed that documentation seems to be the sticking point in
dealing with these problems. It was apparent that very few potential complainants
were taking the time to document the problems they felt they had encountered.
Thorough documentation is one of the most important steps the employee can
take to obtaining a resolution. Correspondingly, managers and supervisors need to
document deﬁciencies, incidents, or other evidence of poor or inappropriate per-
formance, so that there can be an actionable record. This is addressed above in the
EEO section with an informal recommendation.

    The position of ombudsman for IBB became vacant in June 2006. There appar-
ently has been no action taken to ﬁll the position. Because this position represents
the possibility of providing a grass roots sounding board for management concerns
and, given the current state of morale and the dissatisfaction among the rank and
ﬁle, the OIG team suggested to IBB staff that they consider ﬁlling the ombudsman
position.

Reductions in Force and Rumors

    The OIG team encountered much concern from CN employees about possible
RIFs, especially in connection with VOA proposals to reduce or eliminate English
news broadcasts. HR informed the OIG team that Congress had not yet approved
any RIFs, and noted that it has conducted RIFs, as necessary, for over 10 years and is
familiar with best practices in this area. HR staff said they make an intensive effort
to inform the union, inform the employees, distribute general notices in advance, and
follow up with more speciﬁc notices as information is available and ﬁnal decisions
are made. The possibility of current RIFs was announced at a recent town meeting.
Concurrently, IBB has been conducting buyout efforts this year to open up positions
and reduce the need for actual RIFs.

Metrics and Customer Service Feedback

    A few CN employees complained to the OIG team about the service received
from HR. The OIG team asked what HR had done to generate and analyze cus-
tomer service feedback. For the past two years, HR has had every departing em-
ployee anonymously complete an exit questionnaire. The results have been tabulated
in detail and provide very useful conclusions about reasons for departure, evaluation
of the work environment, job satisfaction, etc. HR also surveys management satis-
faction with the quality of recruitment efforts via a questionnaire that accompanies

OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   71 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       each certiﬁcate of candidates. These efforts are encouraging, but the OIG team
       informally recommended that HR conduct a broad-based, active feedback study of
       all serviced employees to monitor service provider quality. In addition, HR main-
       tains detailed tracking records and graphs of the time it takes to ﬁll positions. These
       results, however, are not separated along the lines of the different VOA divisions.
       CN staff contended that although the averages look good, those divisions that are
       BBG priorities still appear to receive the best HR services. The OIG team made an
       informal recommendation that HR separate its results by division.

             The OIG team also suggested that IBB/HR compare its servicing ratios (the
       number of HR specialists per employee) to those at like-sized U.S. government agen-
       cies to determine if in-house support is the most cost-effective. Results may show
       that IBB/HR has a case for requesting additional HR staff from the BBG. USAID,
       for example, has contracted out its classiﬁcation function.

           CN employees have been participating in focus groups, which the agency con-
       tracted with OPM to conduct, as a follow up on the low ranking received by the
       agency in the 2006 Federal Human Capital Survey. According to HR, OPM is
       reported to be happy with initial input by the focus groups. Also, a member of the
       BBG has recently been personally engaged in the agency initiatives to address the
       survey ﬁndings.



       PERSONAL PROPERTY MANAGEMENT
           Personal property operations under the control of the CN administrative unit
       were adequate; staff generally obtained the equipment needed to perform their
       functions. Management controls related to the property database, however, need to
       improve. As with other IBB operations, inventory databases in IBB have been in a
       state of ﬂux for the last few years, even during the inspection. Three CN employees
       are property control ofﬁcers (PCOs), and are responsible for recording and track-
       ing CN property in the Inventory Property Management (IPM) database. A number
       of CN employees, including overseas bureau chiefs, domestic bureau chiefs, and
       some domestic correspondents, assume signatory accountability for both capitalized
       and noncapitalized property in their custodial area and work with the PCOs to keep
       records up to date.

            BBG has historically maintained two property databases, one managed by IBB/
       E for immobile property such as studio consoles and another, the IPM, managed by
       IBB/Administration for property such as computers, vehicles, air conditioning units,
       cameras, and audio recorders. There have been a number of problems with the IPM

72 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




database. A CN employee could transfer accountability for a piece of equipment
to another employee without the newly-assigned accountable ofﬁcer’s knowledge or
physical receipt of the equipment. During an IPM system upgrade, equipment that
had been disposed of in the 1970s reappeared on CN inventories. Additionally, the
new IPM database crashed a few times, and CN staff had to provide IBB/Admin-
istration its cuff records to repopulate the master IPM database. Finally, CN’s IPM
bar code scanners, used to conduct physical inventories, were inoperable and al-
though physical inventories appear to have been taken in CN’s domestic and overseas
bureaus, CN did not conduct a physical inventory of its property in Washington, DC
in 2006. During the inspection, IBB merged all noncapitalized property from the
IPM database into the capitalized property database and started training PCOs on
the new database. Given the above-referenced turmoil and the absence of a stable
master inventory, the OIG team is concerned about the accuracy of property re-
cords.

     BBG has recognized and reported on its inventory problems. In both its 2005
and 2006 Performance and Accountability reports, BBG identiﬁed its use of multiple
property databases and systems as “High Vulnerability Issues.” The migration from
a seemingly unstable IPM database to the IBB/E database appears to show progress,
though the inspection team did not review the planning or pilot tests that IBB may
have conducted prior to the current migration.



    Recommendation 33: Voice of America should conduct a physical inven-
   tory of the Central News Division and reconcile results with both cuff records
   from the old database and records in the new database. (Action: VOA)


    Bureau correspondents were confused about which database certain property,
such as teleconferencing equipment, should appear on. According to the CN PCO,
under the IBB/E database, all property will be captured in the same database and
only one physical inventory conducted each year. This information, however, has
not yet been communicated to the bureau correspondents; the OIG team informally
recommended that CN request that IBB issue the above guidance to all staff assum-
ing signature accountability for property. Additionally, the CN PCO was responsible
for both conducting physical inventories and maintaining inventory records; these
responsibilities should be separated. CN reassigned responsibilities for conducting
the physical inventory during the inspection. CN also started conducting its physical
inventory during the inspection.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   73 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       PROCUREMENT
           Procurement operations under the control of the CN administrative unit were
       adequate, and requests for CN-funded services or equipment were generally pro-
       vided in a timely manner. The costliest CN-funded domestic procurements were
       for: newswire access at about $2 million a year; contractors’ services; and overseas
       correspondent travel.

             All overseas bureau correspondents have contracting warrants for procure-
       ments up to $100,000. A number of the overseas correspondents stated that the
       procurement training they received before traveling overseas was not adequate. They
       receive a week-long simpliﬁed acquisition course offered to contracting ofﬁcers fed-
       eral government-wide. Some also complained that the IBB Ofﬁce of Contracts was
       unresponsive and that IBB staff did not understand complexities of operating over-
       seas. Correspondents often directed questions to the (former) CN program manager
       whom they reported was more responsive. The OIG team suggested that the Ofﬁce
       of Contracts tailor overseas correspondent contract training to typical VOA overseas
       operations. Until that happens, the OIG team made informal recommendations
       that VOA enroll overseas correspondents in one of the Department Foreign Service
       Institute’s simpliﬁed acquisitions courses.

             Ofﬁce of Contracts’ staff stated that their policy had been to respond to over-
       seas correspondents’ questions within 24 hours. The supervisor who instituted the
       policy, however, retired in 2005, and it is unclear if the policy stands. None of the
       CN staff with whom the OIG team spoke were aware of such a response standard
       or effort to meet it. The OIG team made an informal recommendation that the
       Ofﬁce of Contracts reinstitute this policy and publish the policy either in the MOA
       or on the Ofﬁce of Contracts’ webpage. Ofﬁce of Contracts’ staff also stated that
       often they receive requests – primarily dealing with leases – at the last minute leav-
       ing them little time to provide educated advice or adequate reviews. The OIG team
       suggested that the Ofﬁce of Contracts disseminate, along with its 24-hour policy, the
       amount of lead time needed to various contract-related tasks.

           The (former) CN program manager serves as the primary ARCO for newswire
       contracts BBG-wide. In this capacity, she ensures that newswire services are always
       available by requesting that IBB/Contracts initiate new contract negotiations or ex-
       ercise options to extend the terms of existing contracts. She also participates in the
       contract negotiations and she, and CN staff, ensure that both CN and other BBG-
       entities using the newswire services, have obligated adequate funding for newswire
       payments. Non-CN bureaus seeking newswire services have not been satisﬁed with
       the ARCO’s support. They allege that the ARCO prevented their bureaus from


74 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




obtaining newswire services and implied that the ARCO and IBB/Contracts could
negotiate the newswire contracts more effectively. The ARCO, on the other hand,
says that the non-CN bureaus are aware of the options but not willing to fund news-
wire access. As indicated in the Administrative Structure section above, assigning a
program manager within CN (or within any one of the language service divisions)
responsibilities for servicing units outside of his/her own is dysfunctional; the pri-
mary ARCO responsibility would be best placed in the VOA Director’s ofﬁce. That
withstanding, the OIG team found that when the ARCO initiates an option or a new
contract, neither she, nor the Ofﬁce of Contracts, polls all BBG entities to determine
if other BBG-entities, such as LS divisions, need newswire services.



   Recommendation 34: Voice of America should poll all potential newswire
   users within the Broadcasting Board of Governors community to ensure all
   bureaus, grantees, and ofﬁces’ requirements are considered before exercising
   newswire contract options or initiating newswire contract negotiations. (Action:
   VOA)


    A number of management controls over newswire access and payments need to
be instituted. CN pays a monthly fee to access certain Reuters’ newswire services.
Although CN ensures that the Reuters’ monthly invoice charges match monthly
charges agreed to in the Reuters contract, it was unclear from documentation avail-
able during this inspection, exactly what services CN was entitled to receive. CN and
the IBB Ofﬁce of Contracts had difﬁculty ﬁnding Attachment A of the Reuters con-
tract which lists all Reuters’ services CN has contracted for. Both ofﬁces eventually
provided the OIG team with a list of Reuters’ services; however, the list did not say
“Attachment A” or show any other indication that it was part of the ofﬁcial contract
or payment ﬁle. Additionally, during the ﬁeld work stage of the inspection, neither
CN nor the Ofﬁce of Contracts were able to locate contract documentation specify-
ing the number of users allowed to access each of the Reuters’ newswire services
under the contract. Finally, neither the contract nor the payment ﬁles included a
pricing schedule listing how much each Reuters’ service costs. If a newswire service
became inoperable, it was unclear how much the invoice should be reduced; similarly,
if another ofﬁce or BBG bureau wanted to add a drop or service, it was not readily
apparent how much the cost of the contract would change.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   75 .


                       SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




            Recommendation 35: The International Broadcasting Bureau, in coordina-
            tion with Voice of America, should locate and add to its ofﬁcial contract and
            payment ﬁles documentation specifying the services the Central News Division
            has contracted for, the number of users allowed to access each of those ser-
            vices, and a pricing schedule listing the cost of each of those services. (Action:
            IBB, in coordination with VOA)


            The OIG team also made an informal recommendation that CN compare not
       only Reuters monthly invoice charges to those in the contract but also compare ser-
       vices billed to services received and those called for in Attachment A of the contract.
       The OIG team also informally recommended that all newswire contracts specify the
       individuals who have authority to accept newswire services.



       FINANCIAL MANAGEMENT
           CN administrative unit ﬁnancial management operations were in order.20 As
       indicated above, CN controls about $9 million for domestic and overseas nonsalary
       operations. Administrative ofﬁcers in CN monitor domestic CN funds, ensuring that
       funds are available before obligations are established, matching invoices to obligat-
       ing documents, obtaining ARCO certiﬁcation that ordered goods and services were
       received, and sending invoices either to the CFO’s ofﬁce or one of two CN ﬁnance
       centers overseas for certiﬁcation and payment. Administrative ofﬁcers also reconcile
       CN cuff records with ofﬁcial accounting records monthly and received high marks
       from the CFO’s staff for their work. Year-end spending has not been an issue given
       CN’s limited budget and the fact that BBG has not in the recent past allocated excess
       funds to CN at the end of the year.

           The OIG team also made informal recommendations on: CN’s widespread use
       of blanket travel authorizations and revolving advances; CN’s difﬁculty in monitor-
       ing funds available using current accounting system reports; the method and length
       of time it takes to pay stringers, BBG’s cell phone policy, and CN administrative
       staff overtime.




       20
         Overseas and domestic bureau funds are monitored at one of two overseas ﬁnance centers
       where payments are also certiﬁed. OIG did not review overseas bureau ﬁnancial operations or
       the domestically managed Home Leave Transfer account.


76 .                     OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                      SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                FORMAL RECOMMENDATIONS

Recommendation 1: The Broadcasting Board of Governors, through the Interna-
  tional Broadcasting Bureau and Voice of America management, should develop
  and implement an internal communication strategy, building upon and institu-
  tionalizing the brieﬁngs begun in May 2007, to introduce the staff to the 2008-13
  Strategic Plan and to educate staff members about the structure and roles of the
  various parts of the Broadcasting Board of Governors. (Action: BBG)

Recommendation 2: Voice of America should require all bidders on the managing
  editor (Central News Division director) position to demonstrate a strong record
  of leadership skills and make this criterion an essential factor in the position de-
  scription requirements. (Action: VOA)

Recommendation 3: The Broadcasting Board of Governors should assess train-
  ing needs, both in professional and managerial skills, and develop a training plan
  and budget proposal to address documented weaknesses in the Voice of America
  Central News Division. (Action: BBG)

Recommendation 4: Voice of America should hold the managing editor (Central
  News Division director) responsible for all administrative and budgetary decisions
  taken in the Central News Division and accountable for adhering to best manage-
  ment practices. (Action: VOA)

Recommendation 5: The Voice of America should develop and implement a sus-
  tainable and transparent plan for the support of each of the Voice of America’s
  overseas operations, to include the implementation of effective internal controls
  mechanisms. (Action: VOA)

Recommendation 6: The International Broadcasting Bureau, in coordination with
  the Voice of America, should resolve the issues of noise and temperature control
  in the news room. (Action: IBB, in coordination with VOA)

Recommendation 7: The Voice of America should develop and implement stan-
  dard operating procedures for the Central News Division assignments desk staff
  to follow in deciding how to prioritize taskings. (Action: VOA)




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   77 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       Recommendation 8: The International Broadcasting Bureau should review and
         revise, if found appropriate, its payment rates for freelance journalists, taking into
         account international competition and Voice of America’s increasing reliance on
         such journalists for worldwide news coverage. (Action: IBB)

       Recommendation 9: The Voice of America should devise and implement both
         procedural and technological solutions to track news assignments, including tele-
         vision, to avoid redundancy, and to ensure adequate coverage. (Action: VOA)

       Recommendation 10: The Broadcasting Board of Governors should ﬁnalize and
         disseminate to all parties involved a business plan for the integration of television
         into its programmatic offerings outlining, at a minimum, the current and future
         vision and goals, required stafﬁng and budgeting resources, equipment require-
         ments, training plan, and its integration plans with the radio and Internet compo-
         nents. (Action: BBG)

       Recommendation 11: The Voice of America should develop and implement pro-
         cedures based on objective criteria to achieve a transparent process for the alloca-
         tion of professional camera crews and editing suites. (Action: VOA)

       Recommendation 12: The Voice of America should clarify and publicize the
         responsibilities of the Central Video Unit’s managers, regularize the lines of
         supervision, and develop and implement a plan to ensure objective assignment
         procedures, and assure the continued use of appropriate language and adequate
         communication by unit management. (Action: VOA)

       Recommendation 13: The International Broadcasting Bureau should develop and
         implement a plan to train the Central Video Unit staff in the necessary skills for
         using NewsFlow productively. (Action: IBB/E, VOA/CC)

       Recommendation 14: Voice of America should ﬁnalize and disseminate throughout
         Voice of America, the International Broadcasting Bureau and the Broadcasting
         Board of Governors a business plan for the Internet component outlining, at a
         minimum, the current and future vision and goals, required stafﬁng and budgeting
         resources, equipment requirements, and its integration plans with the radio and
         television components. (Action: VOA)

       Recommendation 15: Voice of America, in coordination with the International
         Broadcasting Bureau, should develop, implement, and enforce a formal policy and
         procedures for staff requests for information technology equipment purchases
         and maintenance that assures both VOA division management and information
         technology approve the request. (Action: VOA, in coordination with the IBB)



78 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




Recommendation 16: The Broadcasting Board of Governors, in coordination
  with the Voice of America, should develop performance measures for the Central
  News Division and implement procedures to provide reports on usage and out-
  come (impact) of its radio, television, and Internet products. (Action: BBG, in
  cooperation with VOA)

Recommendation 17: The Voice of America should create a more user-friendly log
  to record Central News material used by the Language Service and clear guide-
  lines on how to use the log and how the Language Services should record the ori-
  gin of reports originally created by Central News. (Action: VOA)

Recommendation 18: Voice of America should require Language Service journal-
  ists covering a news event at the White House, the Pentagon, the Department of
  State, or in Congress to alert the Voice of America Central News correspondent
  assigned responsibility for that location. (Action: VOA)

Recommendation 19: The Voice of America, in coordination with the Broadcast-
  ing Board of Governor’s Chief Financial Ofﬁcer and the International Broadcast-
  ing Bureau’s Ofﬁce of Human Resources, should institute procedures to ensure
  that controversial or resource-related Central News decisions are not disseminated
  to staff or outside entities until written approval has been given by the Central
  News managing editor. (Action: VOA, in coordination with the BBG/CFO and
  IBB)

Recommendation 20: The Voice of America should establish a process for regular
  communication between Central Programming’s administrative ofﬁcers and the
  heads of the Central News Division’s ﬁve Washington-based units, and between
  the administrative ofﬁcers and the domestic and overseas bureau correspondents
  to discuss the status of budgets and upcoming needs. This could take the form
  of monthly meetings, conference calls, video conferences or any of many avail-
  able options. (Action: VOA)

Recommendation 21: The Voice of America Ofﬁce of Central Programming,
  Central News Division, should describe the services and processes that it is re-
  sponsible for, establish performance standards related to each service or process,
  distribute the standards to Central News customers, post the service description
  and standards on its public bulletin board, and include standards of performance
  in work requirements descriptions of administrative positions. (Action: VOA)

Recommendation 22: The Voice of America should develop a transition plan for
  the reassignment of the Central News administrative program manager’s Central
  News responsibilities. (Action: VOA)



OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   79 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       Recommendation 23: The Voice of America, in coordination with the Broadcast-
         ing Board of Governors, should conduct a cost beneﬁt analysis to determine the
         best location for its overseas accounting and certiﬁcation functions, and design
         and implement a plan to relocate those functions based on the results of the anal-
         ysis. (Action: VOA, in coordination with BBG)

       Recommendation 24: The Voice of America, in coordination with the Broadcast-
         ing Board of Governors’ Chief Financial Ofﬁcer, should relocate accounting and
         certiﬁcation functions to the domestic or overseas location determined to be the
         most cost effective by the cost beneﬁt analysis. (Action: VOA, in coordination
         with the BBG CFO)

       Recommendation 25: The Voice of America should develop and implement a
         plan to: ensure adherence to U.S. government regulations; ensure that administra-
         tive ofﬁcers receive adequate training and supervision from trained and seasoned
         administrative staff; allow bureau administrative staff to back each other up when
         workload changes or staff are in training; and, facilitate the redistribution of ad-
         ministrative staff when programmatic priorities shift between bureaus. (Action:
         VOA)

       Recommendation 26: Voice of America management should make adherence to
         Equal Employment Opportunity concerns and leadership training a part of all su-
         pervisors’ performance plans and their annual assessment ratings. (Action: VOA)

       Recommendation 27: The Broadcasting Board of Governors should identify and
         request the resources needed to complete the ﬁnance-related sections of the
         Manual of Operations and Administration and develop a realistic schedule for
         completing the sections. (Action: BBG CFO)

       Recommendation 28: The Broadcasting Board of Governors should complete and
         post the ﬁnance-related sections of the Manual of Operations and Administra-
         tion. (Action: BBG)

       Recommendation 29: The Voice of America should require the head of the Cen-
         tral News Division to sign the Central News Division’s annual internal controls
         assessment. (Action: VOA)

       Recommendation 30: The International Broadcasting Bureau should write and
         implement a policy requiring its Ofﬁce of Administration to meet with all In-
         ternational Broadcasting Bureau division heads, including the Voice of America
         Director, before each years’ assessments are due to explain each unit’s respon-
         sibilities, provide examples of problems to report on, and to answer questions.
         (Action: IBB/Administration)


80 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



Recommendation 31: The International Broadcasting Bureau should provide
  funding for an additional contract classiﬁer in its Ofﬁce of Human Resources to
  ensure the proper and timely review of Central News Division position descrip-
  tions or funding to continue the two existing contractors to complete the Central
  News Division portion by the end of 2007. (Action: IBB).

Recommendation 32: The International Broadcasting Bureau should direct the Of-
  ﬁce of Human Resources to develop a system to provide a periodic status report
  to managers on the current status of hiring actions. (Action: IBB).

Recommendation 33: Voice of America should conduct a physical inventory of the
  Central News Division and reconcile results with both cuff records from the old
  database and records in the new database. (Action: VOA)

Recommendation 34: Voice of America should poll all potential newswire users
  within the Broadcasting Board of Governors community to ensure all bureaus,
  grantees, and ofﬁces’ requirements are considered before exercising newswire
  contract options or initiating newswire contract negotiations. (Action: VOA)

Recommendation 35: The International Broadcasting Bureau, in coordination with
  Voice of America, should locate and add to its ofﬁcial contract and payment ﬁles
  documentation specifying the services the Central News Division has contracted
  for, the number of users allowed to access each of those services, and a pricing
  schedule listing the cost of each of those services. (Action: IBB, in coordination
  with VOA)




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   81 .


                       SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





82 .    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


       SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





             INFORMAL RECOMMENDATIONS

Informal recommendations cover operational matters not requiring action by or-
ganizations outside the inspected unit and/or the parent organization. Informal
recommendations will not be subject to the OIG compliance process. However, any
subsequent OIG inspection or on-site compliance review will assess the inspected
unit’s progress in implementing the informal recommendations.

Executive Direction

There have been allegations in the recent past of political interference in the content
of news reporting by BGG governors and VOA senior leadership. That this percep-
tion is widespread warrants efforts by VOA upper management to bring the issue
out in the open and to make clear that the “ﬁrewall” applies equally to BBG and IBB
upper leadership.

Informal Recommendation 1: The Voice of America should engage staff in an
open discussion to outline the vision of what falls within the “ﬁrewall” and what
falls outside of it.

Central News Division

CN’s Washington correspondents, a leadership group within the VOA staff, rarely
have a venue or opportunity to meet as a group to exchange ideas.

Informal Recommendation 2: Voice of America’s Central News Division should
institute a periodic meeting of the Washington correspondents. The meeting could
take place in an informal setting, such as a “brown bag lunch” and should provide
correspondents the opportunity to communicate about ideas, stories, assignments,
and other pertinent issues.

At the time of this inspection, the new corps of VJs faced two technical problems
that VOA had not fully resolved: (1) the “Mac” laptops were not being serviced by
IBB computer support staff; (2) VJs in both the domestic and overseas bureaus were
unable to access the IBB visual archives and could not, therefore, compose a com-
plete program without this essential resource for images.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007    83 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       Informal Recommendation 3: Video journalists should be provided with techni-
       cal support for their laptop computers and given access from domestic and overseas
       bureaus to the Voice of America video library.

       Interlocutors reported that the VOA style guide was woefully out of date, predating
       television and Internet requirements. But the OIG team learned that the style book
       is present on the ofﬁce intranet page and is updated regularly.

       Informal Recommendation 4: The acting Central News managing editor should
       reissue the announcement to the staff informing them of the web site location of
       the updated version of the Voice of America Stylebook.

       Washington correspondents who cover the Congress, the White House, the Depart-
       ment, and the Pentagon, said that they could be more helpful to their LS colleagues
       if the language services staff understood how the correspondents operated.

       Informal Recommendation 5: Central News should conduct an orientation for
       Language Service journalists describing protocol, both formal and informal, for
       covering news at the White House, the Pentagon, the Department of State, and in
       Congress.

       As language services produce more of their own material, it has become unclear to
       both LS and CN staff what material from the CN “lineup” is required to be used in
       LS news reports. It would be helpful to many on the VOA staff if, after discussion
       with the chiefs of CN and LS, the VOA Director could issue clear written guidance
       on what news LS should be required to use.

       Informal Recommendation 6: The Voice of America should prepare and dissemi-
       nate clear guidance to the language services on what products they are required to
       use from the Central News Division’s News in English Broadcast wire.

       Resource Management

       Domestic and overseas management controls could improve by looking to other
       agencies or contractors for administrative support or advice.

       Informal Recommendation 7: Broadcasting Board of Governors, International
       Broadcasting Bureau and Voice of America management should conduct cost-ben-
       eﬁt analyses to determine if real property, human resources, and contracting sup-
       port could be obtained outside of the Broadcasting Board of Governors for better
       results.



84 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



VOA is losing many of its more experienced administrative staff and those who
remain require more training and direction. The OIG team believes centralizing
the support in one ofﬁce, rather than the current plan for partial oversight from the
front ofﬁce, would be a better long term solution.

Informal Recommendation 8: Voice of America, in coordination with the Inter-
national Broadcasting Bureau Ofﬁce of Human Resources, should identify and set
aside sufﬁcient funds for recruitment and training of its administrative staff.

 Informal Recommendation 9: Rather than expecting mid-level administrative of-
ﬁcers to be expert in a number of complex ﬁelds, Voice of America should consider
separating administrative duties by function (such as ﬁnancial management, human
resource, procurement), similar to those used at other agencies, to facilitate recruit-
ment and development of technical expertise.

Equal Employment Opportunity

Complaints from VOA staff indicated a need for more training for all employees
on EEO principles, promotion of diversity, and what to do if one is subjected to
discrimination.

Informal Recommendation 10: The International Broadcasting Bureau Ofﬁce of
Civil Rights should develop a program to remind all employees of the application of
Equal Employment Opportunity principles, clearly addressing employees’ rights and
responsibilities, describing how the Ofﬁce of Civil Rights may be able to assist them
(stressing the need for documentation); and, providing an avenue to answer ques-
tions.

Travel

IBB does not have a policy to allow travel advances when the traveler has lost use
of his or her U.S. government credit card. Exceptions, however, can be requested in
writing by the individual’s supervisor and are approved on a case-by-case basis.

Informal Recommendation 11: The International Broadcasting Bureau should
consider a more liberal travel advance policy that would allow travel advances for in-
frequent travelers or for travel of lengthy duration as long as the advances are prop-
erly handled and paid back in a timely manner.

Informal Recommendation 12: The International Broadcasting Bureau should
publicize widely and explain clearly its travel advance policy and the process for
requesting an exception.


OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007    85 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       Even after initial IBB efforts to explain the new E-2 travel manager system, there
       have been numerous complaints from employees about the system.

       Informal Recommendation 13: The Ofﬁce of Financial Operations should more
       broadly publicize the existing web site, Frequently Asked Questions and PowerPoint
       presentation and directly urge travelers to take advantage of the availability of the
       one-on-one E-2 travel system training.

       Parking and Security

       IBB appears to have problems synchronizing the work schedule for evening shift
       personnel and the hours of operation of the parking areas.

       Informal Recommendation 14: Voice of America should take up this parking is-
       sue with the International Broadcasting Bureau as a management priority as it has an
       impact on operational efﬁciency.

       The OIG team received a number of employee reports that some Cohen building
       security guards had been found asleep at their posts be addressed.

       Informal Recommendation 15: The International Broadcasting Bureau should ad-
       dress these security concerns with building management.

       Management Controls

       Neither the VOA Director’s ofﬁce nor the Central News Division could locate the
       self-assessment checklists that supported the Central News Division’s 2006 as-
       sessment that internal and management controls were working effectively and that
       program and administrative functions were performed in an economical and efﬁcient
       manner.

       Informal Recommendation 16: The Central News Division should maintain
       underlying support for its management controls self assessment as required in the
       Manual of Operations and Administration.

       Although VOA’s 2006 statement of assurance reported no weaknesses, VOA’s
       underlying support for that assessment was incomplete. VOA only completed the
       “Generic Questions” portion of the checklist despite the fact that VOA managers
       and administrative staff are responsible for a number of important controls included
       in other sections. Additionally, VOA’s assessments referred to the “front ofﬁce” and
       not to “VOA.”




86 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



Informal Recommendation 17: The Voice of America Director’s ofﬁce, when
completing and submitting its management controls statement of assurance to Inter-
national Broadcasting Bureau/Administration, should ensure that all relevant ques-
tions are completed and that its submission reﬂects an assessment of all Voice of
America operations, not only those of the Voice of America’s front ofﬁce.

The Central News Division’s domestic warranted contracting ofﬁcer who signs the
vast majority of domestic CN procurements supervises certiﬁcation ofﬁcers overseas
and could, therefore, pressure those ofﬁcers into certifying payments for procure-
ments that she herself signed. Separating contracting and certifying responsibilities
is an important internal control.

Informal Recommendation 18: The Voice of America, in coordination with the
Chief Financial Ofﬁcer’s ofﬁce, should establish a control to ensure that certifying
ofﬁcers overseas are not pressured by their supervisor into certifying payments for
procurements that their supervisor signed.

Hiring Process/Filling Positions

A number of CN employees complained about the length of time it takes HR to
recruit and ﬁll a vacancy and the difﬁculty in ﬁguring out where in the process a
position action might be. OIG discovered that HR has published, and maintains
on its webpage, a comprehensive guide listing the “Steps in the Hiring Process” and
explaining the amount of time required for each step.

Informal Recommendation 19: International Broadcasting Bureau Ofﬁce of Hu-
man Resources should be more aggressive in drawing the attention of the Voice of
America staff to the web site describing “Steps in the Hiring Process” and ensure
that all Central News employees are aware of it.

There is confusion and suspicion among the VOA staff, particularly the CN staff
about the lack of transparency on what positions are vacant and the status of ﬁlling
them.

Informal Recommendation 20: The Ofﬁce of Human Resources should develop
an electronic status board on its web site where the current status of hiring actions
could be easily and quickly obtained.

The OIG team heard reports from CN employees that they did not understand why
some positions could be ﬁlled without competition and others had to be competed.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   87 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       Informal Recommendation 21: The Ofﬁce of Human Resources should publish
       broadly its policy on competing positions to make it clear to employees when com-
       petition is and is not required.

       Awards, Employee Recognition

       CN employees were concerned about the lack of transparency of the awards pro-
       gram.

       Informal Recommendation 22: The Ofﬁce of Human Resources should dissemi-
       nate broadly the criteria and the rules for eligibility for awards.

       Training

       The HR training ofﬁce plans to expand leadership training and training to improve
       performance and increase promotion potential.

       Informal Recommendation 23: The International Broadcasting Bureau’s Ofﬁce
       of Human Resources should develop a more complete and tailored training plan and
       encourage employees to prepare individual development plans that can be facilitated
       by a new effective range of training courses.

       Training records are not held in one place, so it is difﬁcult to monitor who has had
       what training. IBB has plans to be integrated into the Defense Civilian Personnel
       Data System, by the end of CY 2008.

       Informal Recommendation 24: The International Broadcasting Bureau’s Ofﬁce of
       Human Resources should move forward with its plans to join the Defense Civilian
       Personnel Data System and complete its integration by the end of CY 2008, so that
       better training records can be established and maintained.

       Assistance and Advice for Employees

       The position of ombudsman for IBB became vacant in June 2006. This position
       represents the possibility of providing a grass roots sounding board for management
       concerns. There is currently poor morale and much dissatisfaction among the rank
       and ﬁle.

       Informal Recommendation 25: The International Broadcasting Bureau should
       consider ﬁlling the ombudsman position.




88 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



Metrics and Customer Service Feedback

HR maintains detailed tracking records and graphs of the time it takes to ﬁll posi-
tions. These results, however, are not broken down to reﬂect the results for particular
divisions of VOA.

Informal Recommendation 26: International Broadcasting Bureau Ofﬁce of
Human Resources should craft a means of presenting the results of its tracking of
the time that is taken to ﬁll positions in a way that shows the results for the different
divisions of the Voice of America.

Some CN employees complained to OIG about the quality of the service received
from the Ofﬁce of Human Resources. The Ofﬁce of Human Resources has been
tracking information from departing employees, feedback on candidate lists for va-
cant positions, and the time it takes to complete hiring actions, but it does not survey
its current customers for feedback.

Informal Recommendation 27: The International Broadcasting Bureau’s Ofﬁce
of Human Resources should conduct a broad-based, active feedback study of all
served employees in order to monitor service provider quality.

Outsourcing and Contracting Out

Employee complaints of inadequate service from IBB HR may be due to understaff-
ing and lack of funds.

Informal Recommendation 28: The International Broadcasting Bureau Ofﬁce
of Human Resources should assess whether its servicing ratios are adequate to meet
their needs, and if not, should request more resources from Broadcasting Board of
Governors to staff the ofﬁce properly or should consider outsourcing some of its
HR functions to other U.S. government agencies.

Personal Property Management

Bureau correspondents were confused about which database certain property, such
as teleconferencing equipment, should appear on. IBB recently merged its IBB/Ad-
ministration and IBB/E inventory databases but had not issued guidance to account-
able property ofﬁcers – including bureau correspondents – outlining any require-
ments that had changed.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007      89 .


                       SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       Informal Recommendation 29: The Ofﬁce of Administration, in coordination
       with the Ofﬁce of Engineering, should issue and publish in its Memorandum of Op-
       erations and Administration, any changes to requirements resulting from the merger
       of the inventory databases.

       Some Central News Division property control ofﬁcers are responsible both for
       conducting physical inventories and for maintaining inventory records; these respon-
       sibilities should be separated.

       Informal Recommendation 30: The Central News Division should separate re-
       sponsibility for conducting physical inventories and maintaining inventory records.

       Procurement

       A number of overseas correspondents reported that the procurement training they
       received before traveling overseas was not adequate.

       Informal Recommendation 31: The Central News Division, in coordination with
       the Ofﬁce of Contracts, should either tailor overseas correspondent contract training
       to typical Voice of America overseas operations or enroll overseas correspondents in
       the Foreign Service Institute’s simpliﬁed acquisitions course.

       Ofﬁce of Contracts’ staff stated that their policy had been to respond to overseas
       correspondents’ questions within 24 hours. The supervisor who instituted the policy,
       however, retired in 2005, and it is unclear if the policy stands.

       Informal Recommendation 32: The Central News Division should request that
       the Ofﬁce of Contracts reinstitute its policy to respond to overseas correspondents
       within 24 hours and publish the policy either in the Manual of Operations and Ad-
       ministration or on the Ofﬁce of Contracts’ webpage.

       Ofﬁce of Contracts’ staff stated that often they receive requests – primarily dealing
       with leases – at the last minute leaving them little time to provide educated advice or
       adequate reviews.

       Informal Recommendation 33: The Central News Division should request that
       the Ofﬁce of Contracts disseminate the amount of lead time needed to complete
       various contract-related tasks.

       The (former) CN Division Program Manager is speciﬁed as the primary ARCO in
       the Newswire Contracts; however, she does not receive nor sign all newswire invoic-
       es such as those sent to the Ofﬁce of Cuba Broadcasting, Language Service bureaus,
       or Radio Free Asia. Newswire contracts should specify all individuals who have

90 .                    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                     SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



authority to accept newswire services. Staff in the Ofﬁce of Contracts stated that
they often specify “Field ARCOs” for just that purpose.

Informal Recommendation 34: The Ofﬁce of Contracts, in coordination with the
primary newswire authorized representative of the contracting ofﬁcer or authorized
representative of the contracting ofﬁcer, should ensure that all newswire contracts
specify the individuals who have authority to accept newswire services.

Financial Management

CN initiates payments to stringers using a list of used CN products from the MSR
system. Most stringers do not submit invoices to CN and rely on the MSR system
to capture their work. While this method of initiating payments generally works, the
system breaks down when a stringer has been asked to complete a piece, but that
piece is not actually used by CN. If the work is requested but not actually used, the
contractors are still owed payment for the story if this stipulation is in their contract.

Informal Recommendation 35: The Central News Division should institute a
process to ensure that stringers are paid in accordance with their contracts

Some stringers complained that they are not paid in a timely fashion. The OIG team
reviewed the process and found that payments for stringers are convoluted.

Informal Recommendation 36: The Central News Division should review the
process for paying stringers and determine if any of the steps in the process can be
removed or can be carried out in Washington to reduce payment time.

Blanket travel authorizations are set up for most correspondents, though many only
travel infrequently.

Informal Recommendation 37: The Central News Division should review its use
of blanket travel authorizations with an aim to reducing the amount of funds obli-
gated based on estimates.

Central News provides all overseas correspondents with a “revolving advance” when
they travel to an overseas bureau. The advance is supposed to be paid back at the
completion of their assignment years later.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007       91 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       Informal Recommendation 38: The Central News Division should review its use
       of revolving advances with an aim to reducing the amount of funds obligated based
       on estimates.

       Central News Division administrative staff work a signiﬁcant amount of overtime.

       Informal Recommendation 40: The Central News Division should review the
       amount of overtime worked by staff to determine whether hiring additional adminis-
       trative ofﬁcers would be less costly.

       Neither cell phone, nor satellite phone bills are sent to CN employees for certiﬁca-
       tion that all calls were made for business. VOA CN administrative ofﬁcers per-
       formed this function in the past.

       Informal Recommendation 41: The Central News Division, in coordination with
       the Chief Financial Ofﬁcer’s ofﬁce should establish a policy on personal use of cell
       phones and a mechanism for employees to refund the U.S. government for personal
       use of the phones.

       The Central News Division could not locate BBG’s policy on personal use of cell
       phones or satellite phones.

       Informal Recommendation 42: The Chief Financial Ofﬁcer’s ofﬁce should pub-
       lish the policy on personal use of cell phones or satellite phones and reimbursement
       procedures, if applicable.




92 .                   OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                         PRINCIPAL OFFICIALS

Director of the Voice of America                         Danforth W. Austin              12/06

Acting Managing Editor                                   Jack Payton                     03/07





OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007            93 .


                       SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





94 .    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


       SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                                ABBREVIATIONS

AM                             Medium wave radio
ARCO                           Authorized Representative of the Contracting ofﬁcer
BBG                            Broadcasting Board of Governors
CFO                            Chief Financial Ofﬁcer
CN                             Central News Division
EEO                            Equal Employment Opportunity
FM                             Frequency modulation radio
HR                             Human resources
IBB                            International Broadcasting Bureau
IBB/E                          Ofﬁce of Engineering and Technical Services
                               within IBB
ICASS                          International Cooperative Administrative Support
                               Services
IPM                            Inventory Property Management database
IT                             Information Technology
LS                             Associate Directorate of Language Programming
                               (Language Services)
MOA                            Manual of Operations and Administration
NEB                            News in English Broadcast Wire
OCR                            Ofﬁce of Civil Rights
OIG                            Ofﬁce of the Inspector General
PCO                            Property control ofﬁcer
P/R                            IBB Ofﬁce of Performance Review
RIF                            Reduction in Force




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   95 .


                       SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




       TV                  Television
       USIA                United States Information Agency
       VJ                  Video journalists
       VOA                 Voice of America
       VOA/CC              Central News Division




96 .             OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                                 ATTACHMENT A




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   97 .


                       SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





98 .    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


       SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                                 ATTACHMENT B




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007   99 .


                       SENSITIVE BUT UNCLASSIFIED
        SENSITIVE BUT UNCLASSIFIED





100 .    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


        SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                                 ATTACHMENT C



THE VOICE OF AMERICA CHARTER
        The Charter was written in the late 1950’s, was signed as a Presidential directive by Presi-
dent Eisenhower in 1960, and with the passage of Public Law 94-350, was signed into law by
President Gerald Ford in 1976. It protects the independence and integrity of VOA programming.

  1. VOA will serve as a consistently reliable and authoritative source of news.
VOA news will be accurate, objective, and comprehensive.

     2. VOA will represent America, not any single segment of American society, and
will therefore present a balanced and comprehensive projection of signiﬁcant Ameri-
can thought and institutions.

     3. VOA will present the policies of the United States clearly and effectively, and
will also present responsible discussions and opinion on these policies.




OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007                 101 .


                       SENSITIVE BUT UNCLASSIFIED
        SENSITIVE BUT UNCLASSIFIED





102 .    OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


        SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED





                                        ATTACHMENT D
Central News and Central Television Funding 21
                                      Central News FY 2007 Allotment
                                      Based on Approved FY 2007 Program Plan


                                           Local     Authorized
                     Offices               Hires     Americians        Salaries         GOE                 Total


     Central News Division

     Special Events                                           2     298,000          175,850                  473,850

     Ofc of Chief                                             6     690,000          2,142,442              2,832,442

     Central News (includes Sports)                          60     5,594,000        849,191                6,443,191

     Focus Unit                                               5     511,000          19,974                   530,974

     Central Video                                           26     2,573,000        493,487                3,066,487

     Web Desk                                                11     1,358,000        224,268                1,582,268

     Assignments                                             38     4,657,000        721,187                5,378,187

       Total                                                148       15,681,000       4,626,399            20,307,399


     Domestic Bureaus

     Houston                                                  1     153,081          34,564                   187,645

     Los Angeles                                              2     224,954          24,151                   249,105

     Miami                                                    1     72,646           27,814                   100,460

     New York                                                 4     432,621          19,079                   451,700

       Total                                                  8     883,302             105,608              988,910

     Overseas Bureaus

     Bangkok                                 5                1     205,477          146,537                  352,014

     Beijing                                 2                3     278,473          394,486                  672,959

     Cairo                                   2                1     202,278          163,757                  366,035

     Dakar                                       -            1     111,631          252,152                  363,783

     Islamabad                               2                1     128,972          148,103                  277,075

     Hong Kong                               6                3     1,126,625        1,288,348              2,414,973
     Jakarta                                     -            1                                               324,472


21
  International Cooperative Administrative Support Services (ICASS) charges for overseas operations are
funded by the CFO’s office and are not included in budget figures above; domestic bureau rent changes are
funded by the IBB Office of Administration and are not included in the domestic bureau budget above;
newswire services used at overseas bureaus are paid out of the office of the VOA domestic CN budget not
the overseas bureau budget; and, overseas correspondent travel and home leave transfer costs are funded
domestically.




     OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007                              103 .


                               SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




                                                                     112,671         211,801

        Jerusalem                              1               2      239,625        128,056               367,681

        Joberg                                 1               1      192,779        154,539               347,318

        London                                 5               1     727,118         725,080              1,452,198

        Moscow                                 1               2      178,032        203,006               381,038

        Nairobi                                1               1      197,303        235,109               432,412

        New Delhi                              2               1     112,153         263,446               375,599

        Paris                                  3                     266,530         20,335                286,865

        Seoul                                      -           1     97,646          163,180               260,826

          Total                                31             20        4,177,313      4,497,935          8,675,248

        Grand Total                            31            176      20,741,615      9,229,942          29,971,557




        FY 2006 Funding for VOA Television Program Initiative




                                   Element                                            Total FY 2006 \1
        Persian - TV: Bring TV Schedule to 4 hrs daily                                                    5,469
        Afghan - Dari/Pashto TV: 1 hr/day                                                                 1,287
        Urdu:TV 1hr/day                                                                                   3,074
        TV Central support                                                                               10,135
        TV Studio Infrastructure                                                                          4,795
        Management/Administrative Support Costs                                                              68
        Total                                                                                            20,033 


        \1 This includes $1.7 million from the FY 2005 Emergency Supplemental that remained available in FY
        2006.




104 .                        OIG Report No. ISP-IB-08-06, Inspection of Voice of America Central News, October 2007


                         SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED





 SENSITIVE BUT UNCLASSIFIED

